<html>
<title> - CRITICAL SKILLS FOR NATIONAL SECURITY AND THE HOMELAND SECURITY FEDERAL WORKFORCE ACT</title>
<body><pre>[Senate Hearing 107-468]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-468
 
CRITICAL SKILLS FOR NATIONAL SECURITY AND THE HOMELAND SECURITY FEDERAL 
                         WORKFORCE ACT--S. 1800
=======================================================================



                                HEARING

                               before the


INTERNATIONAL SECURITY, PROLIFERATION AND FEDERAL SERVICES SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION


                               __________

                             MARCH 12, 2002

                               __________

      Printed for the use of the Committee on Governmental Affairs






                          U.S. GOVERNMENT PRINTING OFFICE
79-886                             WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001












                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
         Hannah S. Sistare, Minority Staff Director and Counsel
                     Darla D. Cassell, Chief Clerk

                                 ------                                

INTERNATIONAL SECURITY, PROLIFERATION AND FEDERAL SERVICES SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 THAD COCHRAN, Mississippi
ROBERT G. TORRICELLI, New Jersey     TED STEVENS, Alaska
MAX CLELAND, Georgia                 SUSAN M. COLLINS, Maine
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
JEAN CARNAHAN, Missouri              PETE V. DOMENICI, New Mexico
MARK DAYTON, Minnesota               ROBERT F. BENNETT, Utah
                Nanci E. Langley, Deputy Staff Director
               Mitchel B. Kugler, Minority Staff Director
                      Brian D. Rubens, Chief Clerk













                            C O N T E N T S


                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Thompson.............................................     3
    Senator Cochran..............................................     6
    Senator Voinovich............................................    24
Prepared statement:
    Senator Durbin...............................................    39

                               WITNESSES
                        Tuesday, March 12, 2002

Donald J. Winstead, Assistant Director, Compensation 
  Administration, Office of Personnel Management.................     4
Sheri A. Farrar, Assistant Director, Administrative Services 
  Division, Federal Bureau of Investigation, accompanied by 
  Margaret R. Gulotta, Chief of the Language Services Unit, and 
  Leah Meisel, Deputy Assistant Director and Personnel Office, 
  Federal Bureau of Investigation................................     7
Ruth A. Whiteside, Principal Deputy Assistant Secretary, Bureau 
  of Human Resources, Department of State........................     8
Ginger Groeber, Acting Deputy Assistant Secretary, Civilian 
  Personnel Policy, Department of Defense........................    10
Harvey A. Davis, Associate Director, Human Resources Services, 
  National Security Agency.......................................    11
Hon. Lee H. Hamilton, Director of the Woodrow Wilson Center for 
  International Scholars, former Member of the House of 
  Reprsentatives.................................................    20
Susan S. Westin, Managing Director for International Affairs and 
  Trade Issues, U.S. General Accounting Office...................    29
Ray T. Clifford, Ph.D., Chancellor, Defense Language Institute...    31

                     Alphabetical List of Witnesses

Clifford, Ray T., Ph.D.:
    Testimony....................................................    31
    Prepared statement...........................................    92
Davis, Harvey A.:
    Testimony....................................................    11
    Prepared statement...........................................    68
Farrar, Sheri A.:
    Testimony....................................................     7
    Prepared statement...........................................    46
Groeber, Ginger:
    Testimony....................................................    10
    Prepared statement...........................................    62
Hamilton, Hon. Lee H.:
    Testimony....................................................    20
    Prepared statement...........................................    73
Westin, Susan S.:
    Testimony....................................................    29
    Prepared statement...........................................    79
Whiteside, Ruth A.:
    Testimony....................................................     8
    Prepared statement...........................................    53
Winstead, Donald J.:
    Testimony....................................................     4
    Prepared statement...........................................    40

                                Appendix

Copy of S. 1800..................................................    94
Response for the Record from Mr. Winstead to question asked at 
  the hearing....................................................   124
Response for the Record from Ms. Groeber to question asked at the 
  hearing........................................................   148
Questions and responses from:
    Mr. Winstead.................................................   129
    Ms. Farrar...................................................   131
    Ms. Whiteside................................................   133
    Ms. Groeber..................................................   142
    Mr. Davis....................................................   144
    Ms. Westin...................................................   147




















CRITICAL SKILLS FOR NATIONAL SECURITY AND THE HOMELAND SECURITY FEDERAL 
                         WORKFORCE ACT--S. 1800

                              ----------                              


                        TUESDAY, MARCH 12, 2002

                                     U.S. Senate,  
                 International Security, Proliferation,    
                       and Federal Services Subcommittee,  
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:33 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Daniel Akaka, 
Chairman of the Subcommittee, presiding.
    Present: Senators Akaka, Thompson, Cochran, and Voinovich.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. The Subcommittee will please come to order. 
I want to thank our witnesses for joining us this afternoon. We 
are beginning to find that many of our colleagues as well as 
others in the community are finding much interest in what we 
are going to be talking about today.
    The terrorist attacks of September 11 exposed the strengths 
and weaknesses of our great country. We saw firsthand the 
impact of critical personnel and needed skills in our national 
security agencies. These events also gave us a preview of the 
problems we will face tomorrow if these skills are not 
strengthened.
    Federal agencies did not have the critical personnel with 
the language capabilities needed to investigate the attacks. 
Some agencies, like the FBI, were forced to post urgent job 
announcements for foreign language speakers to translate and 
investigate crucial evidence. According to the President's 
Science Advisor, there is not enough scientific expertise in 
government to evaluate proposals to combat terrorism in a 
timely fashion.
    In today's Washington Post, we are reminded that agencies 
have a shortage of analysts to translate and analyze the large 
volumes of intelligence data acquired since U.S. forces entered 
Afghanistan. This has led some officials to admit that there is 
a risk that information valuable to our efforts against 
terrorism could slip through.
    The importance of national security critical skills in 
government has been recognized for some time. Congress passed a 
National Defense Education Act of 1958 in response to the 
Soviet Union's first space launch. We were determined to win 
the space race and make certain that the United States never 
came up short again in the areas of math, science, technology, 
or foreign languages.
    Members of this Subcommittee have worked on this issue more 
recently. Under the guidance of Senator Cochran, this 
Subcommittee held a hearing a year and a half ago to define 
more clearly the United States' need for foreign language 
proficiency and to examine whether appropriate resources were 
made available to strengthen these skills among Federal 
workers.
    At that time, we heard that the intelligence community 
lacked individuals with the translating skills needed to 
respond in times of crisis. Last March, Senator Voinovich held 
a hearing on the national security implications of the human 
capital crisis. Witnesses from that hearing sent a strong 
message that strengthening math, science, and foreign language 
capabilities in government is a precondition for fixing 
virtually everything else in our U.S. national security 
complex.
    Let me thank Senator Cochran and Senator Voinovich for 
their leadership in these areas. Senator Voinovich has also 
asked me to announce that he thinks this hearing is very 
important, and although he has been unavoidably delayed, he 
expects to be here later.
    I also want to thank Senator Thompson who has been one of 
the leaders on this issue, and I want to thank him for his 
leadership.
    Our math, science and foreign language capabilities in the 
Federal Government are at risk and there is no quick solution. 
It has taken years of neglect to reach this deficit in trained 
workers, and it will take sustained efforts to hire, retain, 
and retrain employees with critical skills.
    We must use every tool at our disposal to defend America 
against present and future threats. To do this, we must ensure 
that the talented people in government have the right expertise 
to meet their changing missions.
    Senators Durbin, Thompson, and I introduced S. 1800, the 
Homeland Security Federal Workforce Act, as a comprehensive, 
long-term approach to addressing these shortfalls in 
government. I am pleased that the Ranking Member of this 
Subcommittee, Senator Cochran, as well as Senators Voinovich 
and Collins, are cosponsors of S. 1800. This bipartisan 
approach takes an important step toward recruiting more people 
into government with critical national security skills.
    Complementing this legislation is S. 1799, the Homeland 
Security Education Act, which addresses shortages of those 
students pursuing degrees in math, science, and critical 
foreign languages. The Homeland Security Education Act proposes 
several measures to ensure that government preserves its 
expertise in matters of national security.
    This bill increases student loan forgiveness programs for 
those who work in positions of national security and offers 
fellowships for existing Federal employees and those who commit 
to serve in Federal national security positions.
    It offers a rotational assignment program for mid-level 
Federal employees and provides training and professional 
development opportunities. We must make certain that those 
entering Federal service have the needed skills and that our 
existing workforce has the opportunity to acquire specialized 
training. As we seek new government employees, we cannot ignore 
the people whose expertise and talents guide agencies daily in 
meeting their missions.
    With our witnesses' help, we will explore the skills that 
agencies need to accomplish their current national security 
missions and how the Homeland Security Federal Workforce Act 
can help meet the challenges of strengthening these skills in 
the future.
    I want to thank our witnesses for being here today and I 
look forward to an interesting and lively discussion. And now I 
would like to yield to my friend and colleague and one of the 
leaders in this effort, Senator Thompson.

             OPENING STATEMENT OF SENATOR THOMPSON

    Senator Thompson. Thank you very much, Mr. Chairman. I 
appreciate your holding this hearing today. It is becoming more 
and more obvious that you are dealing with a very important 
issue and one that is vital to our national security.
    I think when the Hart-Rudman report came out, for example, 
we all became even more acutely aware, and, of course, the 
events of last fall, that we cannot be where we need to be 
without the right kind of people, and we are losing too many of 
the right kind of people that we are going to need in the 
future, especially with regard to some of these particularly 
vital areas.
    That, of course, is what our bill that you referred to 
tries to do. I think some legitimate points have been made 
concerning overlap and duplication and how it all fits 
together, and those are valid points. We need to work our way 
through all that. Hopefully, this will be an opening 
opportunity, a first step, to start the discussion as to where 
we need to wind up. So I am looking forward to hearing what our 
witnesses have to say, and so with that, I will cease and 
desist and ask that my full statement be made a part of the 
record.
    Senator Akaka. Without objection, it will be included in 
the record.
    [The prepared statement of Senator Thompson follows:]
                 OPENING STATEMENT OF SENATOR THOMPSON
    Thank you, Mr. Chairman. I commend you for holding this hearing, 
and for your efforts to ensure that the Committee and the Subcommittee 
both continue to focus on Federal workforce issues. I can think of few 
who deserve our consideration more right now than those are making and 
will continue to make our country safe.
    Clearly, in today's environment, national security and the battle 
against terrorism enjoy substantial attention and support. And it is 
gratifying to know that many Federal employees who have long toiled in 
relative obscurity are now getting the recognition they deserve.
    But as experts have noted and as common sense will tell you, these 
sentiments are not enough to guarantee a robust, capable national 
security workforce. Instead, it is our job to make sure that the right 
incentives, programs, and laws are in place to give this workforce the 
people it needs to get the job done. As the frightening events of last 
fall highlighted, there are critical shortages among our national 
security employees, and these will get worse--not better--with 
inaction. This is the thrust of the Homeland Security Federal Workforce 
Bill.
    We should also realize that, despite the rapt focus by all 
Americans on serious events here and overseas, any successful workforce 
strategy must address the long term. And in the long term, the Federal 
Government must worry about its ability to attract employees who can be 
romanced away by higher salaries and better opportunities for 
advancement.
    Therefore, this bill takes an important step in providing the 
incentives to make careers in national security appealing. Young people 
may be attracted to help defend the country because of patriotism, and 
I hope they are. But we realize that exactly because they are some of 
the best and brightest, they are presented with attractive and 
lucrative offers from private business, and will weigh financial 
concerns and the potential for advancement in their final decision. Our 
bill does not just look to new hires, because they constitute an 
investment in the distant future. In the near future, the national 
security workforce will depend on retaining the experienced people 
already on the job. That is why the bill establishes the National 
Security Service Corps, which will provide an exciting and 
professionally rewarding opportunity for middle managers. And finally, 
because the inability of agencies to set goals and to drive towards 
those goals is a chronic problem, the bill tells agencies to address 
their national security human capital needs in their performance and 
strategic plans. I believe that, if agencies are pushed in the planning 
direction long enough, some of them may eventually get it.
    This bill really is just the first step in a long march, because 
the Federal workforce's national security problems are truly 
disturbing. The General Accounting Office, in a report released 2 
months ago, found that ``all four of the agencies it surveyed reported 
shortages of translators and interpreters as well as shortages of 
staff, such as diplomats and intelligence specialists, with foreign 
language skills that are critical to successful job performance. Agency 
officials stated that these shortfalls have adversely affected agency 
operations and hindered U.S. military, law enforcement, intelligence, 
counterterrorism, and diplomatic efforts.''
    But our problems are not confined to the area of language 
expertise. The specter of nuclear terrorism looms, but we face it with 
an Nuclear Regulatory Commission and an Energy Department with that are 
having human capital problems. Bioterrorism directed at the food chain 
would be dealt with by the Department of Agriculture, which is also in 
the midst of personnel shortfalls. For example, the GAO found that 
``food safety, in which USDA plays a major role, continues to suffer 
from inconsistent oversight, poor coordination, and inefficient 
deployment of resources.''
    At the same time, it is important to get the answer right. Though 
the issues I've outlined are real, I'm not sure the solution is to pile 
new programs on top of existing programs if these have not been 
successful. Before we throw dollars at these workforce problems, we 
need to look at whether we should consider blending our initiatives 
with the other proposals--legislative and otherwise--that are currently 
in play.
    After all, the issue of personnel reform is not new. True, this is 
a serious problem, and we don't have the luxury of endless debate. But 
I suspect that if you could tear away some of the layers here, you 
would see an age-old discussion about how to attract the best talent to 
government.
    So today, I'm looking forward to beginning a process. We have 
representatives from some of the agencies this bill would affect, and 
I'm eager to hear from them about the health of their national security 
workforces and what it may take to fix them. We'll also hear science 
and language experts tell us, governmentwide, where the shortcomings 
are in our most important jobs. And I look forward to listening to the 
Office of Personnel Management, which will ultimately bear 
responsibility for implementing our plan.

    Senator Akaka. I would like to welcome our first panel. I 
want to thank Donald Winstead from the Office of Personnel 
Management, Sheri Farrar of the FBI, Ruth Whiteside of the 
Department of State, Ginger Groeber of the Department of 
Defense, and Harvey Davis of the National Security Agency for 
being with us this afternoon.
    Mr. Winstead, you may proceed with your statement and your 
full statements will be included in the record. Thank you.

    TESTIMONY OF DONALD J. WINSTEAD,\1\ ASSISTANT DIRECTOR, 
  COMPENSATION ADMINISTRATION, OFFICE OF PERSONNEL MANAGEMENT

    Mr. Winstead. Mr. Chairman and Members of the Subcommittee, 
good afternoon. I am Don Winstead. I serve as Assistant 
Director for Compensation Administration for the Office of 
Personnel Management. I appreciate the opportunity to appear 
before you today to discuss S. 1800, the Homeland Security 
Federal Workforce Act.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Winstead appears in the Appendix 
on page 40.
---------------------------------------------------------------------------
    The events of September 11 forever changed the Federal 
Government's personnel requirements. Every agency must now 
consider its work and mission in a new context, one that was 
nearly unimaginable before. The skills needed by agencies to 
fulfill their expanded homeland security missions are diverse 
and in many cases unique to the particular mission of the 
agency.
    The administration is committed to addressing the human 
capital needs of the national security agencies, working with 
this Subcommittee, and supports the concept underlying S. 1800.
    We strongly support efforts to ensure that the Federal 
workforce has the people it needs to fulfill homeland security 
missions and we stand ready to work with the sponsors of this 
legislation to achieve our mutual goals.
    S. 1800 would provide special new programs for those 
components of the Executive Branch that have traditionally been 
designated as national security agencies. For those agencies, 
it would provide an enhanced student loan repayment program, a 
fellowship program comparable to the recently implemented 
Scholarship for Service Program, and a program to encourage 
details of employees between national security agencies. These 
are all concepts worth studying further.
    We would urge consideration of these concepts within the 
context of existing programs and flexibilities. For example, 
the current program for the repayment of student loans for 
Federal employees has been operating only for a relatively 
brief period. As agencies become more familiar with the program 
and its framework, we expect to see greater and more effective 
use. We believe any consideration of enhancements to the 
program should reflect those experiences.
    The administration is concerned about the establishment of 
a separate fund for this worthy purpose. We are continuing to 
work with agencies to assist them in using their individual 
salaries and expenses funding to target the recruitment and 
retention incentives that will be most effective for their 
specific needs. We believe allowing agencies to make these 
decisions is appropriate since we are ultimately holding them 
accountable.
    Title II of S. 1800 creates a fellowship program for 
graduate students to enter Federal service in national security 
positions. While we question the necessity and effectiveness of 
creating a new board to administer the program, we support the 
concept of this title, which resembles that of the Scholarship 
for Service Program currently operating to bolster the 
government's information assurance infrastructure.
    The National Security Corps concept also parallels existing 
authorities. The option of broadening an employee's perspective 
through rotational assignments among organizations is one we 
include in many of our current programs including the highly 
regarded Presidential Management Intern Program.
    Typically, the programs that include such opportunities are 
not limited to a particular area such as national security. 
However, it is important to note in turn that the 
administration's concept of national security is a broad one. 
Every agency must be concerned with how its role and mission 
links to national security concerns. Personnel in the Centers 
for Disease Control working on bioterrorism solutions, Customs 
inspectors developing new strategies to assure the safety of 
containers imported into the United States, and Federal 
Emergency Management Agency personnel working on improving 
evacuation procedures and fire safety precautions--these are 
just a few of the Federal employees whose work involves 
national security, but who have traditionally not been thought 
of as part of the national security workforce.
    We believe S. 1800 should be considered within the context 
of other human resource management proposals such as those in 
the administration's Managerial Flexibility Act. That act 
offers a number of initiatives that would help address the 
human capital needs related to national security in the broader 
sense.
    Senators Thompson and Voinovich have introduced bills 
containing these important governmentwide proposals, which will 
benefit all Federal agencies, even those whose roles in 
national security matters have not previously been given 
recognition.
    The administration looks forward to the upcoming hearings 
to be held on the President's legislative proposal. As a 
package, these new and expanded authorities will empower 
Federal managers to make the decisions and cultivate a 
workforce that can lead to increased efficiency and 
effectiveness in Federal programs and which can respond to the 
changing dynamics of the economy and the challenges of a 
changing world, and we believe all of this can be accomplished 
without changing the veterans' preference laws that have long 
been a cornerstone of the civil service.
    This concludes my remarks and I would be happy to answer 
any questions.
    Senator Akaka. Thank you very much, Mr. Winstead. Before I 
call on Ms. Farrar, I would like to yield to my friend, Senator 
Cochran.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much. I 
especially appreciate your kind remarks during your opening 
statement. I welcome the witnesses who are testifying before 
our Subcommittee today. I think this legislation will provide 
some needed incentives to help deal with the problems we have 
in foreign language education and recruitment, training of 
people who are essential if we are to achieve success in our 
effort to provide security for our citizens.
    Following the tragic events of September 11, I think our 
earlier concerns that we had discussed in previous hearings and 
efforts to attract attention to this serious problem have been 
magnified, and the reality has set in now, and we need to get 
busy and do something. I think the time for talking about the 
problem is over. We need action and your presence here and your 
support for our efforts are deeply appreciated. Thank you.
    Senator Akaka. Thank you very much. Ms. Farrar, will you 
please give your statement.

     TESTIMONY OF SHERI A. FARRAR,\1\ ASSISTANT DIRECTOR, 
      ADMINISTRATIVE SERVICES DIVISION, FEDERAL BUREAU OF 
INVESTIGATION, ACCOMPANIED BY MARGARET R. GULOTTA, CHIEF OF THE 
   LANGUAGE SERVICES UNIT, AND LEAH MEISEL, DEPUTY ASSISTANT 
DIRECTOR AND PERSONNEL OFFICER, FEDERAL BUREAU OF INVESTIGATION

    Ms. Farrar. Good afternoon, Mr. Chairman, distinguished 
Members of the Subcommittee. I, too, want to thank you for the 
opportunity to come before you today to talk about the Homeland 
Security Federal Workforce Act. My name is Sheri Farrar, and I 
am the Assistant Director of the Administrative Services 
Division of the FBI.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Farrar appears in the Appendix on 
page 46.
---------------------------------------------------------------------------
    I am here today representing Director Mueller. I am joined 
today on my left by Margaret Gulotta, who is the Section Chief 
of our Language Services Section, and sitting directly behind 
me is Leah Meisel, who is the Deputy Assistant Director and 
Personnel Officer for the FBI.
    You have my written statement before you. Today I only want 
to take a few moments to highlight some of the points in that 
statement.
    First, there is no question that the critical skill needs 
of the FBI have changed over the last several years, and those 
critical needs have been further heightened by the events of 
September 11. The FBI faces the same challenges of all agencies 
in keeping pace with advances in technology. Our challenge is 
twofold: To support our day-to-day computer and information 
technology needs, and to advance our technical and scientific 
programs to ensure our ability to exploit the advances in 
technology that confront us in our investigative and 
intelligence collection and exploitation initiatives.
    We have always needed foreign language capabilities, but 
the languages deemed most critical have certainly changed. 
Obviously, Middle Eastern and Central Asian languages have now 
become our highest priorities. We have emphasized these skill 
needs in our recruiting strategies. For agents we have placed 
at the highest priority for both recruiting and processing 
those who have computer science and information technology 
abilities, physical and natural sciences, engineering, and 
foreign languages.
    For our support employees, we are seeking to recruit 
individuals who have the analytical capability to serve in our 
intelligence research specialist positions. Again, those with 
foreign language capabilities and with computer and information 
technology skills.
    The FBI has an aggressive hiring recruiting plan this year. 
We are seeking to bring over 900 agents and over 1,400 support 
employees on board this year. Now, as never before, our 
recruitment strategies are focused on hiring people with the 
critical skills I have mentioned.
    We are cautiously optimistic. At our recruiting results so 
far, we have received an extraordinary number of applications, 
and as we review those, we are finding highly qualified 
candidates. Of course, we still need to get them through our 
background process.
    Let me speak briefly about S. 1800. Like all agencies 
confronting today's new challenges, we welcome any program that 
enhances our competitiveness in attracting and retaining talent 
so that we do certainly support the concept of the legislation.
    In that regard, I would like to make a few observations 
concerning the student loan repayment provisions in the bill. 
As you know, the FBI is in the excepted service. Consequently, 
as drafted, we are concerned that many of our employees may not 
be eligible under the provisions of the bill.
    The FBI is fortunate to already have existing guidance 
allowing for repayment of student loans, and it is not limited 
to solely national security positions. Although we have just 
recently received this ability, therefore it has made it 
difficult for us to tell whether or not it is going to help us 
to recruit and retain individuals.
    We also remain concerned that the bill as written creates 
additional levels of bureaucracy to include the administration 
of the funding, which may have the tendency to inhibit the use 
of these flexibilities. We are grateful, however, that the 
Subcommittee is interested in supporting our national security 
mission by developing programs to enhance our ability to 
attract the skills we need to be successful. And we look 
forward to working with you as these programs are developed.
    In that regard, we strongly encourage you to also consider 
the flexibilities available under the administration's proposed 
Managerial Flexibility Act. This act as written provides 
agencies with greater ability to address today's complex 
workforce issues.
    I thank you again for the opportunity to address you. This 
concludes my formal testimony. Mrs. Meisel, Mrs. Gulotta and I 
are happy to answer your questions at the appropriate time. 
Thank you.
    Senator Akaka. Thank you very much, Ms. Farrar. Ms. 
Whiteside, please present your statement.

 TESTIMONY OF RUTH A. WHITESIDE,\1\ PRINCIPAL DEPUTY ASSISTANT 
   SECRETARY, BUREAU OF HUMAN RESOURCES, DEPARTMENT OF STATE

    Ms. Whiteside. Thank you, sir. I welcome this opportunity 
to appear before the Subcommittee on behalf of the Department 
of State. A year or so ago I was privileged to appear before a 
similar hearing chaired by Senator Cochran on language issues 
in my former job as the Deputy Director of the Foreign Service 
Institute at the State Department, and we are keenly aware of 
the need to emphasize languages and the leadership shown well 
before September 11 and certainly the interest of the Congress 
now.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Whiteside appears in the Appendix 
on page 53.
---------------------------------------------------------------------------
    My prepared statement, sir, is also a part of the record, 
but the most important point I would like to make today is to 
underscore our view that our diplomats and our diplomacy all 
around the world are indeed, as this legislation indicates, a 
part of the national security strategy of the United States as 
well as our foreign policy strategy.
    Secretary Powell has provided us terrific leadership on 
these issues over the last year. With his very strong support, 
the strong support of the administration, and of the Congress, 
we are in the first year of what we hope will be a 3-year 
diplomatic readiness initiative which will allow us to begin to 
fill the personnel gaps we have across the board at the State 
Department in all of our categories.
    We have a very aggressive recruiting campaign underway now, 
and we are already eagerly using the tools available to us, the 
current student loan program, and we are interested in the 
concepts that underlie this legislation and an increased use of 
those tools. For the current student loan repayment program, we 
are only now designing our program under the new legislation, 
but I think I would simply underscore the fact that agencies 
will want to have as much flexibility as we can in designing 
these programs so that we can be sure that they focus on our 
particular recruitment and retention needs.
    We would also want to be sure that the legislation allows 
us a way to include the Foreign Service in this. Currently our 
student loan program will address both Foreign Service and 
civil service requirements, and so we would hope that would be 
the case with any new legislation.
    We were also very interested in the various fellowship 
concepts that are in this legislation. We have some excellent 
experience with fellowship programs now. On the Foreign Service 
side, we have a Pickering Fellows Program which does underwrite 
undergraduate and graduate education for promising Foreign 
Service candidates. We are using the National Security 
Education Program as a recruitment pool for very talented young 
men and women who have done studies in languages or other 
national security areas. These, I think, are exactly the kinds 
of programs we need to identify the best and the brightest for 
our Nation's foreign service.
    On the student loan program, I would simply say one of the 
things that is clear to us since September 11, sir, is interest 
in public service and interest in the Foreign Service and the 
civil service at the State Department has never been higher.
    When we gave the Foreign Service written exam in September, 
13,000 people showed up on a Saturday morning to take the test, 
just a few weeks after the tragic September 11 events. That was 
the largest number of takers of the Foreign Service exam in 
recent years. We are giving that exam again in April. The 
registration closes today, and we have an even greater 
registration than we had in September. So I think the point is 
young men and women are very interested in careers in public 
service, careers in foreign affairs, or in the other agencies.
    They do arrive on our doorstep in many cases with a 
terrific education, but one that they have paid a very high 
price to get, and I think the tools that helps us offset those 
loans, the tools that help us give them some competitive 
ability for us to reach them--one of the problems with the 
National Security Education Program is these young men and 
women have an obligation to work in the Federal Government, but 
they must apply and come into the Federal Government through 
the normal application procedures, and it would be great to 
find some ways that we could reach them more quickly.
    In all of these areas, we are very eager to work with the 
Congress, to work with OPM and our other colleagues to design 
as many tools as we can to meet these critical national 
requirements. Thank you, sir.
    Senator Akaka. Thank you for your statement, Ms. Whiteside. 
Ms. Groeber, you may give your opening statement now.

    TESTIMONY OF GINGER GROEBER,\1\ ACTING DEPUTY ASSISTANT 
  SECRETARY, CIVILIAN PERSONNEL POLICY, DEPARTMENT OF DEFENSE

    Ms. Groeber. Thank you, Mr. Chairman. It is a privilege to 
appear before you and the Subcommittee today to discuss your 
legislation. I have limited my remarks to 5 minutes and ask 
that my prepared testimony be included in the Subcommittee's 
record.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Groeber appears in the Appendix 
on page 62.
---------------------------------------------------------------------------
    At this pivotal time, we certainly share the Subcommittee's 
interest in ensuring that this and other Federal agencies have 
language, science, mathematics, and engineering expertise that 
is needed to support our national security.
    We appreciate the strategic approach that you and your 
cosponsors and the Subcommittee have taken on this issue. We 
also appreciate the persistent and collaborative efforts of 
Senator Voinovich and his staff in addressing human resource 
management issues.
    Mr. Chairman, your legislation is timely. As you know, the 
Department of Defense is emerging from a decade of downsizing. 
Our workforce is smaller and better educated. While the number 
of employees in science, mathematics, and engineering 
occupations has decreased since 1989, their percentage measured 
against other occupational disciplines is increasing. The 
challenge of building and maintaining a diverse language 
proficient workforce continues.
    With respect to the legislation, we support increases in 
the annual loan for the repayment amount and in the overall cap 
on repayment of student loans. We believe that proposals for 
loan payments and graduate fellowships are very useful 
incentives in recruiting and retaining a highly qualified 
workforce.
    We are concerned that a centralized program of loan 
repayment and a single authority for determining positions 
eligible for graduate fellowship would diminish the 
flexibilities we need to implement these programs.
    In addition, we want to harmonize any new programs with 
those career development activities the department now 
operates. We would also strongly urge the Subcommittee and 
indeed the Congress to provide favorable consideration to the 
expanded and streamlined improvements in the administration's 
Managerial Flexibility Act.
    While I am not an expert in science, mathematics, 
engineering, and language disciplines, I would like to respond 
in general to the questions posed by the Subcommittee.
    Expertise in science, math, and engineering skills is a 
cornerstone of our national security capabilities. These skills 
are needed to ensure the quality of the work performed in our 
laboratories as well as our interaction with the industrial 
base.
    Foreign language expertise is an essential factor in the 
national security readiness. With respect to the future, there 
will be an increasing demand in all areas of electrical 
engineering and computer science. All key service platforms, 
ships, planes, and tanks are using more complex systems. System 
engineering will be an increasingly important skill for both 
technical and non-technical positions.
    Translation and interpretation skills and knowledge are 
increasingly important combat force multipliers and mission 
enhancers.
    Financial assistance is always helpful when competing for 
the best and the brightest and in retaining them in our 
workforce. There is some question as to whether financial 
incentives can fully ensure the quality of science and 
engineering employees we seek.
    Often truly innovative scientists and engineers are driven 
by strong intellectual curiosity rather than economics. In 
addition, we have found that the flexibility in hiring these 
scientists expeditiously is equally important.
    With respect to language proficiency, we believe that a 
more coordinated approach in providing financial assistance and 
career development would be very useful.
    There have been a number of changes over the last several 
years. Prior to the year 2000, the military departments 
generated their requirements for language and skill areas based 
upon two major theater war scenarios, largely focusing on 
language and area tasks within the intelligence services.
    Requirements in special operations, foreign affairs, and 
field units will now be incorporated. The Department of 
Defense's foreign language program strategy is changing the way 
we recruit, the list of languages that we train in, and the 
language task to be performed in our management of these 
valuable assets.
    In summary, we look forward to working with the 
Subcommittee to address these critical challenges in a 
strategic, flexible, and balanced approach. Thank you again for 
the opportunity to testify. This concludes my remarks and I 
would be glad to answer any questions.
    Senator Akaka. Thank you very much, Ms. Groeber. Mr. Davis, 
you may proceed with your statement.

  TESTIMONY OF HARVEY A. DAVIS,\1\ ASSOCIATE DIRECTOR, HUMAN 
          RESOURCES SERVICES, NATIONAL SECURITY AGENCY

    Mr. Davis. Thank you very much, Mr. Chairman, Members of 
the Subcommittee, for the opportunity to appear before you 
today. My name is Harvey Davis. I am Director of Human 
Resources at the National Security Agency.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Davis appears in the Appendix on 
page 68.
---------------------------------------------------------------------------
    The NSA is the Nation's cryptologic organization, and as 
such employs this country's premier codemakers and 
codebreakers. A high technology organization, NSA is on the 
cutting edge of information technology. Founded in 1952, NSA is 
a separately organized agency within the Department of Defense 
and supports military customers and national policymakers.
    I would like to begin my statement by addressing the 
significance of strong math, science, and foreign language 
expertise at NSA, how the events of September 11 have affected 
our need for technical and analytic skills and the skills 
required for the future.
    NSA's workforce possesses a wealth of critical skills and 
expertise and is composed of mathematicians, intelligence 
analysts, linguists, computer scientists, and engineers.
    In the spring of 1999, the Director of NSA initiated 
transformation of our workforce designed to focus our employees 
on the mission, change our ethos, and maintain staffing levels 
in critical areas. The events of September 11 reinforced our 
need to transform the agency, confirmed that we were on the 
right path, showed that we must increase the pace of that 
transformation, and ultimately underscored the value of people 
and their contribution to producing intelligence.
    If nothing else, the events of September 11 highlighted the 
fact that there is no single solution to the threats facing our 
Nation. Therefore, a balanced multidisciplinary approach is the 
only answer. Teams of individuals with varied skills working 
together employing the latest technology in a collaborative and 
creative manner are our best defense against the threats of the 
21st Century.
    To create collaborative teams, NSA relies on the unique 
combination of specialties. Analysts, engineers, physicists, 
mathematicians, linguists, and computer science are key to that 
mix. These individuals team as necessary to meet ever-changing 
requirements.
    For example, cryptanalysts use mathematics, computer 
programming, engineering, and language skills as well as new 
technologies and creativity to solve complex intelligence 
problems.
    Certainly these skills will always be critical requirements 
for the NSA. With the increased volume, velocity, and variety 
of globalized network communications, there has been a growing 
need for our technical employees to have expertise in new skill 
areas.
    Among these key areas are network security, vulnerability 
analysis, and public key infrastructure. There has been a 
similar broadening in the scope of contributions of our 
language analysts, who are now going well beyond their 
traditional applications to tackle network exploitation and 
signals intelligence development.
    The blurring of the lines between technical and analytic 
disciplines is an ongoing and inevitable outcome of the 
increasing technical nature of our work and the sophistication 
and complexity of the target. The continued need for competent 
and near-native language capability is also critical to our 
success.
    How have our skill needs changed over the last several 
years? Well, in the mid 1990's, NSA looked to technology as the 
solution for many of the complex challenges and focused its 
hiring and development initiatives on technical skills at the 
expense of language and analysts.
    However, the loss over the last several years of 
experienced linguists and analysts has created difficulties for 
the agency in the areas of target knowledge, less commonly 
taught languages and training for the next generation.
    As we strive for a better balance, we have tried to 
maintain a robust and fairly consistent mathematics hiring 
program, looked more to private industry and contracting for 
technical skills, reenergized our linguist and analyst hiring, 
and revitalized our cryptologic reserve program.
    The Department of Defense and its components develop and 
maintain strategies and programs for ensuring the recruitment 
and professional development of its employees, and NSA is 
taking full advantage of a wide variety of these programs under 
our existing authorities. NSA has hired approximately half its 
fiscal year 2002 hiring program to date, building on the 
successes of a successful last year.
    Like many other agencies, NSA has struggled in the past to 
attract top talent to the government, yet we have had success 
in attracting new recruits with the quality, complexity, depth, 
and scope of our work, our commitment to continuing education 
and development, paying of foreign language bonuses and 
incentives, targeted hiring and retention bonuses, continuing 
education opportunities and work life initiatives. All those 
benefits and programs notwithstanding, the market continues to 
be a challenge for us.
    In conclusion, our people remain the key to NSA's future. 
We are committed to recruiting, hiring, and retaining highly 
educated, technically sophisticated and readily adaptable core 
of skilled individuals required to meet the mission challenges 
posed by the new targets and technologies. Thank you, Mr. 
Chairman, and Members of the Subcommittee, for giving us the 
opportunity to speak to you today.
    Senator Akaka. Thank you, Mr. Davis. I would like to thank 
all of you for your statements. I have some questions for you 
and the Subcommittee has questions. Nearly a year ago, OPM 
issued regulations for the current Student Loan Repayment 
Authority after Senators Durbin, Voinovich and I added an 
amendment to the DoD Authorization Act to ensure the program's 
implementation.
    As you know, departments now have the authority to provide 
this recruitment and retention incentive using funds from their 
existing salary and expense accounts. Mindful of agencies' 
expanded homeland security missions, our bill would establish 
funding separate from S&E accounts for student loan repayment.
    The question is how are your agencies using this new 
flexibility and would your agencies increase the use of this 
authority if there was funding apart from the S&E accounts? Mr. 
Winstead.
    Mr. Winstead. As you pointed out, the regulations on this 
new program were implemented last year, and in fact the final 
regulations were not issued until I believe August or late 
July. So there was really only a couple of months left in the 
fiscal year for agencies to put together their plans. We know 
that several agencies have, in fact, used this new authority, 
and we have information about how those agencies have used the 
authority.
    It has been used so far in only a handful of cases. We are 
confident, however, that as agencies become more familiar with 
the use of this program that their use of this flexibility will 
continue to increase.
    I would have to defer to other agencies regarding the 
question about how they would use this program if separate 
funding were available. My only observation on that point is 
that our belief is that it is important if we are going to be 
holding agencies accountable for how they are using their 
resources to make sure that they make the case for the use of 
additional funds, to build that into their own budget request, 
so that we can hold them accountable for the use of their 
salaries and expenses funding for that purpose, and that is the 
way that we would prefer to see this program operated.
    Senator Akaka. Ms. Farrar.
    Ms. Farrar. As I said, we just recently again got our 
provisions in place, so it would be very difficult for me to 
answer. I do not know yet how what we have now is going to 
assist us, whether the money came from some other place or from 
the FBI's funding. It would be difficult now to know whether or 
not the difference, being able to manage it ourselves, using 
our own money, how that would counter with using someone else's 
money, but also having to follow the guidance and regulations 
there. It is just too soon for me to know the answer.
    Senator Akaka. Ms. Whiteside.
    Ms. Whiteside. As I mentioned, sir, we are only just now 
designing our program under this. We have identified in our 
current S&E account $2 million for this fiscal year for the 
program. It is already clear to us what the demand is and the 
categories of positions we will be considering for student loan 
repayments--which are less than the maximum allowed under this 
legislation. We are also still in the very early stages of 
defining our target populations and organizing our 
implementation.
    Senator Akaka. Ms. Groeber.
    Ms. Groeber. The department issued its student loan 
repayment plan in October of last year. Both the Army and the 
Navy have published their plans and the other components are 
working on them. We particularly are interested in your plans 
on increasing those amounts because we do think that is going 
to be key for the future. So we support that initiative in the 
legislation.
    Senator Akaka. Mr. Davis.
    Mr. Davis. Yes. We are in the early stages also of looking 
at that tool, though it can prove to be a very good tool in the 
toolbox in terms of recruitment and hiring.
    Senator Akaka. GAO will testify this afternoon that, 
``Foreign Service officers must be placed in language 
designated positions at lower than desired levels of 
proficiency.'' S. 1800 would help break the cycle of having a 
shortfall of applicants who are fully language qualified.
    Rather than having to increase staff to train people in 
languages, our bill and its companion, S. 1799, would train and 
provide incentives for individuals to obtain the necessary 
skills before joining the State Department and not after.
    Is that the goal in the Department of State's diplomatic 
readiness initiative and, if not, shouldn't it be?
    Ms. Whiteside. I think, sir, it is a combination of goals 
of which that is certainly one. We do very much focus our 
recruiting on individuals who already have language skills. We 
do not in the Foreign Service make that a requirement for 
entry. There are a variety of reasons for that. The Foreign 
Service is a worldwide service. We expect our Foreign Service 
officers over the course of a 30-year career not just to serve 
in one country or even in one region, but to be available, as 
our foreign policy requirements are, to be available for 
worldwide service.
    So most of them over the course of a career often will 
bring one language into the Service with them, but then will 
acquire another language or perhaps two other languages in the 
course of their careers. So I think the answer is targeted 
recruiting to people with language skills is a very key 
component, and that is why a program such as the National 
Security Education Act or the kinds of fellowship programs 
envisioned here would be very helpful.
    But as our foreign policy requirements change from year to 
year, I think we also believe we need to keep this flexible 
capacity to train our people as well and to retrain them and to 
strengthen their skills. We often find people who have not 
served in a country where they have the language for some years 
will spend 3, 4, or 6 months back at the Foreign Service 
Institute getting that skill back up to the level of 
proficiency that they require.
    So we support both the goal of increasing the pool of 
talent that can bring languages into the service, but we also 
believe that we need to continue to meet our requirements by 
being able to move quickly to train people in languages as 
those needs emerge.
    Senator Akaka. Mr. Winstead, S. 1800 establishes the 
National Security Service Board made up of OPM and certain 
Federal agencies. The board's function is to coordinate the 
bill's fellowship and employee rotation programs with workforce 
planning goals. By doing so, we hope to ensure that National 
Security Fellows locate meaningful and appropriate positions in 
the Federal Government.
    I understand that existing fellowship and recruitment 
programs are experiencing high attrition levels. This is 
particularly true of the President's Management Internship 
Program. Would you provide for the record what fellowship 
opportunities now exist, governmentwide, as well as those that 
target specific national security skills and include the number 
of participants in each program as well as the individual 
program recruitment retention and attrition levels?
    Mr. Winstead. We certainly can provide that information for 
the record. I did mention in my prepared testimony the 
Scholarship for Service Program that was initiated about 4 
years ago. And that is an example of the kind of fellowship 
program that I think does have the potential to be very 
successful. It was created in order to deal with information 
security issues, and it is one that is jointly operated, 
managed by the National Science Foundation and the Office of 
Personnel Management, and I think it has potential for being 
very successful in that regard, but we can provide information 
about all of the programs that are available at the present 
time for the record.\1\
---------------------------------------------------------------------------
    \1\ The information referred to from Mr. Winstead appears in the 
Appendix on page 124.
---------------------------------------------------------------------------
    Senator Akaka. Ms. Farrar, in your testimony, you state 
that because FBI is in the excepted service, many of its 
employees would not be eligible for the loan repayment 
provisions in S. 1800. However, with the exception of the 
limitation on national security positions, S. 1800 mirrors the 
language of 5 U.S.C. Section 5379(a)(2), regarding ineligible 
employees.
    In addition, OPM has issued regulations on this provision 
which state that excepted service employees, those excepted 
from the competitive service, with the exception of Schedule C 
employees, may receive student loan repayment benefits if they 
are otherwise eligible.
    With this in mind, let me ask the following: (1) could you 
explain how S. 1800 would not be applicable to the majority of 
employees at the FBI; (2) if technical amendments are required 
to include the FBI under the provisions of this bill, do you 
have any suggested language; and (3) assuming then that you are 
included under S. 1800, how would the provisions of this bill 
assist you in recruiting and retaining highly qualified 
employees?
    Ms. Farrar. OK. It does sound--excuse me for one second--if 
the language is exactly the same as it is in the other bill, 
then it may be that the majority of our employees would be 
included as they are. Perhaps that is our misreading of the way 
that S. 1800 was written.
    If our employees were included in S. 1800, I think, as I 
said in my testimony, I believe it would expand the amount of 
money that would be available. Our question is we believe right 
now that we have been very successful in our recruiting 
campaign. That is at least our initial indications. We would 
want to save these kinds of flexibilities to recruit where we 
do find that we are having problems. Right now, because we are 
still in the early stages of our recruiting, we are not certain 
what those positions are going to be.
    They may well be in the foreign language area, but we have 
gotten so many applications, and as we are going through those, 
we are hopeful that we are going to be able to recruit the 
employees we need. I suspect S. 1800 and the other 
flexibilities that we have are going to be most useful for us 
for retention purposes than for recruiting.
    I would agree there is a big desire nowadays to join in 
public service, so I think that is helping our recruiting. As 
we move a couple of years down the road, these may be very 
helpful to us in our retention abilities.
    Senator Akaka. This is a question for FBI, Department of 
Defense, and NSA. How do your agencies identify which skills 
are needed, develop recruitment strategies, and make your 
agencies attractive to individuals with science and technology 
backgrounds? Ms. Farrar.
    Ms. Farrar. The Administrative Services Division is 
responsible for developing the FBI's hiring strategies, our 
recruiting strategies and identifying what our skill needs are, 
and we do that by working with our field managers and also 
working with the individual program managers at FBI 
Headquarters to tell us what particular skills they believe are 
needed to make their program successful.
    For instance, I would go to Mrs. Gulotta in the Language 
Services Section to find out what the demands have been. She 
would be working with the program managers to see what foreign 
languages are in most need for us to be successful in our 
investigative programs, and then we design our recruiting 
strategies around what our program managers tell us are the 
needed skills.
    Senator Akaka. Ms. Groeber.
    Ms. Groeber. We identify the skills necessary based upon 
what we have projected is going to occur in the world and 
looking at it from the mission perspective of the two theater 
war initiatives that we would be able to support.
    New things that crop up, such as September 11, add 
something to our planning scenario, and we try to overlay that 
into what skills would be necessary at that time and add that 
into the mix. We receive all of that information from the 
components, and at the Secretary's level, we assist in them 
figuring out how we can indeed provide those employees with 
those skills.
    Senator Akaka. Mr. Davis.
    Mr. Davis. Yes. We do a skills mix analysis against our 
strategic goals and that transformation that we talked about, 
taking into account those people that are attriting and leaving 
the agency and those skills that are necessary to prosecute our 
future mission. To go after these folks we have an aggressive 
hiring campaign. We are out at over 100 schools during the 
recruiting season, and one of the things that we found that is 
really attracting people is the nature of the work itself, and 
we have taken to bringing a lot of our technical experts, our 
actual operational people, to talk to the students so they can 
understand the nature of the work that needs to be done, and 
that hooks people in.
    Senator Akaka. Thank you very much. And I would like to 
yield to Senator Cochran for his questions.
    Senator Cochran. Mr. Chairman, thank you. Mr. Winstead, it 
is clear that this legislation would place some new 
requirements on the Office of Personnel Management. Do you know 
or could you advise us at this point whether you would need 
additional resources to accomplish the demands of the new 
workload?
    Mr. Winstead. Well, I think it is clear that if we were to 
be administering a fund, clearly there would have to be 
additional resources that would have to be devoted to funding 
the payments, and in addition I think there would be some 
additional administrative expenses associated with doing that. 
Exactly how much at this point I am not in a position to say.
    Senator Cochran. Ms. Farrar, the FBI was recently singled 
out in a study by the General Accounting Office entitled 
``Human Capital Approach Needed to Correct Staffing and 
Proficiency Shortfalls.'' In that reference, they talked about 
your use of the OPM workforce planning model. Could you tell us 
how you find that process helpful to you? Are you familiar with 
the workforce planning model of OPM?
    Ms. Farrar. I did not have an opportunity to read that 
report, but Mrs. Gulotta is familiar with it, and she is in 
charge of the Language Services.
    Ms. Gulotta. Actually it has been very helpful. It all 
starts with the FBI strategic plan, and we have a foreign 
language program plan that goes along with it that sets actual 
milestones and strategic objectives. We poll our field managers 
and our program managers at headquarters to find out what the 
crime or intelligence objectives are, and then we set our 
language goals and we measure them against workload 
measurements that we have.
    Every year, we set targeted hiring goals by language. And 
we do that for special agents where we actually have targeted 
languages that we are looking for for special agents, and also 
for our language specialists where we have a funded staffing 
level, and we have a specific amount of people that we can 
hire.
    Senator Cochran. I congratulate you for winning the praise 
of the GAO.
    Ms. Gulotta. Thank you very much, sir. We are very happy 
about that.
    Senator Cochran. Let me ask if you have any suggestions 
about additional measures that would be useful in improving our 
ability to recruit and retain personnel with skills that are 
critical to national security needs? You or Ms. Farrar or Mr. 
Winstead?
    Mr. Winstead. Sure. I can respond to that. We mentioned the 
President's Managerial Flexibility Act in our testimony. There 
are a number of provisions in that proposed legislation that I 
think would be helpful to national security agencies as well as 
to other Federal agencies.
    For example, we would like to build on the recruitment, 
relocation, and retention payments that are currently in law to 
make them more flexible and easier to use and also to permit 
them to be delivered in more effective ways to current 
employees and to candidates for employment.
    In addition, we have in that legislation authority to 
directly hire candidates for certain kinds of positions for 
which there is a shortage of candidates or a critical hiring 
need, and also the ability if that legislation were to be 
enacted to use alternative ranking and selection procedures 
which would also facilitate hiring not only for national 
security agencies and employees but also for other employees as 
well.
    Senator Cochran. This is the legislation the president has 
recommended?
    Mr. Winstead. Yes.
    Senator Cochran. Is it not? And that has been introduced. I 
think some witnesses have already referred to the legislation.
    Mr. Winstead. That is correct.
    Senator Akaka. I think Senator Thompson and Senator 
Voinovich have introduced that bill at the request of the 
administration, and I am sure it will be a measure that will be 
carefully considered in this Subcommittee as we move forward in 
our effort to try to do something legislatively to help improve 
the situation.
    We really do need to find ways to improve recruitment and 
retention. Ms. Whiteside, you talked about some of these 
challenges in your statement. We appreciate your being here. Do 
you have any comments now about what you think the bill itself 
would or would not do? Are we overstating it or should we 
include something that we have left out? What are your views?
    Ms. Whiteside. I think, sir, my views, to echo what my 
colleagues have said there really is a war for talent out 
there, and we know that many, many young people want to join 
and do the work we do. We need ways to shorten our own process 
for getting them in the door. We are working very hard on that 
internally. We have reduced our own Foreign Service process 
from the time someone takes the exam to entering the Foreign 
Service from 27 months to about 10 months, and we are moving 
that down even more.
    But I think tools, for example, that might give fellowship 
participants some sort of non-competitive eligibility. It takes 
us still nearly a year to bring a new Foreign Service employee 
in the door. That is partly because we, like most agencies, 
have very serious and exacting security clearance requirements 
that may not be there for other agencies, but we find that some 
of the folks who would like to join the Department are quite 
young and in many cases just out of school and not particularly 
experienced. For them, the sort of normal civil service 
competitive process becomes something that they are just not 
particularly willing to invest the time to do.
    So anything that shortens that process gives agencies more 
flexibility to reach out and find the people they need. I would 
also emphasize our concern right now probably more than 
recruitment are retention issues: For example, as people move 
through their careers into the mid-ranks, have families, 
particularly for overseas employees, where family issues and 
the inability of spouses often to work, means that many of our 
Foreign Service employees cannot really have a two-income 
family overseas that is often the norm here. Our retention 
issues really are increasingly as or more important for us than 
recruiting.
    Senator Cochran. Ms. Groeber, I was going to ask you 
particularly about the high attrition rate among Army language 
specialists, and am wondering whether or not you have an 
opinion about the issues that lead to that high attrition rate 
and whether you have thoughts about what could be done to curb 
the exodus of skilled personnel?
    Ms. Groeber. You are talking about the military specialist?
    Senator Cochran. Yes.
    Ms. Groeber. I would have to get back to you and provide 
that for the record since I am not an expert on the military 
side.\1\
---------------------------------------------------------------------------
    \1\ Requested information from Ms. Groeber appears in the Appendix 
on page 148.
---------------------------------------------------------------------------
    Senator Cochran. OK. Mr. Davis, you mentioned in your 
statement, the market--and I quote here--``The market continues 
to be a challenge for us.''
    I wonder if you have any plans or past practices in 
developmental programs with universities to improve your 
ability to recruit qualified personnel for the National 
Security Agency?
    Mr. Davis. Yes. And, sir, we use our math program as really 
an example of that, and what we found is that the sooner you 
get in contact with students, the better chance you have to 
employ them. So, in terms, for example, in our mathematics 
area, we have things called the Mathematics Education 
Partnership Program, where we have a math speakers bureau, an 
NSA partnership with schools, we have summer institutes, camps 
for teachers and students, educational partnerships and grants, 
excess equipment program, USA Math Talent Search, and we are--
in the math community, we are locked in with key professors who 
make decisions at the universities as well as the math 
community throughout the country.
    So using that as a model and moving that to other skills, 
that would be the direction that we would be moving in.
    Senator Cochran. Thank you very much. Thank you, Mr. 
Chairman.
    Senator Akaka. Thank you very much, Senator Cochran. I want 
to thank you for your statements and your responses. All of 
that will be useful to this Subcommittee. Thank you very much.
    I am pleased to welcome the Hon. Lee H. Hamilton, Director 
of the Woodrow Wilson International Center for Scholars, as our 
second panelist.
    Mr. Hamilton served for 34 years as a U.S. Congressman from 
Indiana, where he was chairman of the Committee on 
International Relations. Mr. Hamilton was also chairman of the 
Joint Economic Committee and the Permanent Select Committee on 
Intelligence.
    In his own State of Indiana, Mr. Hamilton has worked hard 
to improve the education, job training, and infrastructure 
programs of its citizens, and is now Director of the Center on 
Congress Project at Indiana University. It is a pleasure to 
welcome a friend that I had the privilege to serve with in the 
U.S. House of Representatives. So thank you very much for being 
here today, and you may proceed with your statement.

 TESTIMONY OF HON. LEE H. HAMILTON,\1\ DIRECTOR OF THE WOODROW 
WILSON CENTER FOR INTERNATIONAL SCHOLARS, FORMER MEMBER OF THE 
                    HOUSE OF REPRESENTATIVES

    Mr. Hamilton. Mr. Chairman and Senator Cochran, thank you 
for the opportunity. I really do commend you and your 
Subcommittee and its Members for tackling this problem of the 
human dimension to national security. I think I am here largely 
not so much because of my congressional experience but because 
I served on the U.S. Commission on National Security for the 
21st Century, and they devoted a considerable part of their 
report to the problems that you are addressing here in S. 1800 
and S. 1799.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Hamilton appears in the Appendix 
on page 73.
---------------------------------------------------------------------------
    You may know that two of your former colleagues headed that 
commission, Senators Rudman and Hart, and that it was initially 
established by the Secretary of Defense, Mr. Cohen and I think 
the idea for the commission arose with Speaker Gingrich, and he 
served on the commission. But one of the unanimous points of 
the commission--we really had no disagreement on this at all--
it was a principal conclusion, was that the Federal Government 
must focus more attention and resources on the human 
requirements for national security.
    There was a real sense of urgency among members of the 
commission on that. You look at so many things when you 
consider national security, and all of them are important I 
guess, but anybody who operates any kind of an organization 
will tell you that in the end, it is the people that count. Are 
they qualified, committed people? And I do not care how good 
your technology is or how good your system is, if you do not 
have good people you are not going to get good results.
    We said that the maintenance of American power in the world 
depends on the quality of U.S. Government personnel, civil and 
military at all levels. And we said that we must take immediate 
action in the personnel area to ensure that the United States 
can meet future challenges.
    We considered this business of qualified personnel to be of 
fundamental importance to the national security of the United 
States. And we felt that the need of the U.S. Government in 
both civilian and military capacities, but particularly people 
in science, math, engineering, and languages, was not being met 
by the present system and that something had to be done.
    We emphasized the importance of promoting high quality 
education in these areas, which we deemed critical to the 
national security, and we concluded that the capacity of our 
educational system to create a 21st Century workforce second to 
none in the world is a national security issue of the first 
order.
    And if we do not reverse the negative trends--the general 
teaching shortage, the downward spiral in science and math 
education and performance, we will not be able to maintain our 
position of global leadership.
    So that is the principal point. There was among all of us 
with all of our different political views and ideologies a 
unanimous, strongly felt conclusion of the urgency of this 
problem. And in today's world, we need those kind of people. We 
found that the U.S. Government has not focused sufficiently on 
the fit between the missions it has, on the one hand and the 
personnel it needs, on the other.
    Now, I do not want to in any way cast doubt upon the people 
who preceded me. They are all experts on government personnel, 
and I am not. I know they are very well intentioned, and I am 
sure they have a good many suggestions to make to Members of 
this Subcommittee, but I think what we find missing here 
something that cuts across departments and agencies and gives 
overall direction to our personnel needs now and in the future.
    The national security workforce--let me focus on that for 
just a minute--we face, as they said a moment ago, a serious 
problem in attracting and retaining talented people. I am not 
sure I heard enough of the testimony, but I got the impression 
that they are at least moderately satisfied with the way the 
present systems are working.
    We would not agree with that. We do not think that the 
present system, however described, is working satisfactorily. 
Part of the problem, of course, is that the private sector can 
attract these talented people with higher salaries.
    An additional problem, we think, is that the civil service 
today simply does not offer the kind of opportunities for 
growth and development that you get in the private sector 
today. And we supported the idea that, I think, is incorporated 
in S. 1800 of a National Security Service Corps. We recommended 
the establishment of that corps to broaden the experience base 
of departmental managers and to develop leaders who are skilled 
at producing integrated solutions to the national security 
problems.
    So I strongly support S. 1800 for the establishment of that 
National Security Service Corps. I think that it correctly 
points out that it would help to invigorate the national 
security community.
    One of the things we said in our report, and I am 
paraphrasing now, is that there is no place in the U.S. 
Government where science and technology personnel assets, as a 
whole, are assessed against the changing needs. We have had a 
lot of studies made of this in the government. The General 
Accounting Office has looked at it. The Congressional Research 
Service has looked at it. The now defunct Office of Technology 
Assessment has explored the issue.
    They look at individual departments and individual 
agencies, and indeed it is interesting that the people 
preceding me were, I think, from five or six different agencies 
or departments all looking at the problem as they should from 
their particular perspective, the FBI's perspective, the Office 
of Personnel Management perspective, and so forth.
    But we felt that no one above the departmental level 
examines the appropriateness of this fit between missions and 
personnel in the area as a whole. I cannot speak for all of the 
commissioners obviously, but your proposals with regard to 
student loan payment and fellowships, I think are on the mark.
    We made very similar recommendations in the National 
Security Commission Report. We recommended the deferral of 
student loan repayments for individuals who serve in government 
for a period of time. And we proposed the Congress expand the 
National Security Education Act to include broad support for 
social sciences, humanities and foreign languages.
    Now I am not sure, Mr. Chairman, whether you are also 
interested in my comments on S. 1799 as well, or do you just 
want me to confine my remarks to S. 1800?
    Senator Akaka. Why do you not proceed with that?
    Mr. Hamilton. OK. I will try to be quick with regard to S. 
1799. We concluded here that the need for trained people in 
science and math, computer sciences, and engineering is simply 
not being met, and we found, for example, that more than 
240,000 new and qualified science and math teachers are needed 
in our K through 12 classrooms over the next decade. That is 
out of a total of 2.2 million new teachers.
    We found that some 34 percent of public school mathematics 
teachers and nearly 40 percent of science teachers lack even an 
academic minor in their primary teaching fields. We found that 
in 1997, Asia alone accounted for more than 43 percent of all 
science and engineering degrees granted worldwide; Europe, 34 
percent; and North America, 23 percent.
    In that same year, China produced 148,000 engineers. We 
produced 63,000 engineers. So something has to be done to 
accelerate the development of more qualified people in these 
areas. We all understand why students do not go into science 
and math--they are hard subjects, and you have to work hard in 
college to tackle those subjects, and I think you have admired, 
as I have admired, people that do that, and you have also, each 
of you, I am sure, sat on university platforms and watched 
students receiving engineering, mathematics, computer science 
degrees, and said to yourself a large proportion of those folks 
are non-American.
    Senator Akaka. Absolutely.
    Mr. Hamilton. Are foreigners. And they are the ones that 
are getting the degrees, the advanced degrees in these 
difficult subjects. That is to their credit and not to our 
credit that it is happening.
    So, we need to produce significantly more scientists and 
engineers to meet our anticipated demand, not just for the 
economy but also for the national defense of the country, and 
they have to be produced, I think, fairly quickly.
    I might note when I talked about the private sector a 
moment ago that the average salary of an entering science and 
math professional in the private sector today is $50,000. That 
compares with $25,000 for the average starting teacher, and 
keep in mind, as you very well know, that almost all these 
students today that are graduating from college do so with 
considerable bills to pay, loans to be repaid. So the salary 
level makes a bigger difference than you might initially think 
when you look at it.
    S. 1799, you forgive the interest payments on student loans 
for undergraduates that are pursuing these degrees. The only 
criticism I would make of that is that I do not think you go 
far enough. Just forgiving the interest payments, I do not 
think is going to help that much. I am for it, but I think you 
ought to consider forgiving some of the principle as well.
    I know that costs more money and you have to wrestle with 
the priority question, but I think this is an urgent matter. 
And I would like to see the student loan repayments extended to 
the graduate as well as the undergraduate students, and I think 
your bill just extends them to the undergraduates. But I 
support S. 1799 because I think it is aimed at this exceedingly 
difficult problem that we confront.
    Now, let me just comment, if I may, on the testimony here. 
They took the view that there are numerous programs in place 
that promote the goals of this legislation. They say that there 
are rotations within the Federal agencies, and that they have 
student loan repayments and fellowships to encourage people to 
go into the government service.
    They also argue that the legislation that is pending before 
this Subcommittee creates a centralized program that would 
increase the bureaucracy and reduce the flexibility of 
individual agencies. There is something to that, but I think I 
take the opposite view, and that is given the urgency that 
exists in the country, we need someone in this government at a 
pretty high level asking the question what are the needs in 
terms of national security personnel and how do we get the 
personnel to meet those needs, rather than to look at it on an 
individual agency or department level.
    That is important, but you need more central direction. Now 
they make the point that you have to have some flexibility, and 
I think we would all agree with that. So you have got to strike 
the right balance here in your legislation. Overall, I think, 
as I read the testimony that was presented to you a moment ago, 
what comes through to me is a lack of urgency, and I think what 
the commission members felt, look, you can talk all you want 
about missiles and armaments and new weapon systems and 
everything else, but we had better begin to focus in this 
country on getting qualified people forward in these tough 
disciplines, including, may I say, the foreign languages where 
we are woefully deficient.
    So I think more money is needed. Now they claim that they 
have incentive programs, and they do in these departments and 
agencies, but the incentives have to be drawn, as I understand 
it, from the pool of money that is there for salaries and so 
the administrator has to make tradeoffs, incentives for 
salaries, and I think you need additional resources so you do 
not put the administrator in that kind of a box.
    In other words, you need to give him money to provide 
additional incentives, and that money must not come out of the 
pool for salaries. We have got a wave of Federal Government 
retirements coming up. We have this tremendous need for people 
with these skills, and so I think, to conclude, it is a matter 
of the highest importance to the national security of the 
United States, nothing is any of higher importance than to 
resolve this shortage of qualified people in the technical 
skills without which your national security apparatus cannot 
function well. Thank you.
    Senator Akaka. Thank you very much, Mr. Hamilton. You and I 
have known one another for awhile, and my only question for you 
is that having listened to or read the testimony of our first 
panel, how would you answer those who fault S. 1800 and S. 1799 
for making math, science, and engineering a priority?
    Mr. Hamilton. Well, I just think that is where we are short 
of talent and not just mildly short. We are desperately short 
of talent. One of the witnesses a moment ago used a phrase I 
thought was pretty good. We have got ``a war for talent'' going 
on out there, and believe you me, the private sector needs 
these people. You all know how diligently top math and science 
engineering, computer science people are recruited by the 
private sector.
    They have got this problem figured out. They know they have 
got to have a steady stream of talented people coming into 
their organization or they are not going to be able to perform, 
and we are not either.
    Now, I was not a math or a science or an engineering 
student for abundant reasons, but I know that is the talent 
that makes our technology go, and I know that technology is 
needed for our national security.
    Senator Akaka. I thank you for your----
    Mr. Hamilton. We have to give favor. We have to provide an 
additional incentive to those people.
    Senator Akaka. I thank you for pointing out what was 
missing. I take this is coming from all of your experiences in 
important positions for government, and thank you for pointing 
out that we need something that can cut across all agencies. I 
appreciate your support for setting up a national security 
service corps. All these things/ideas will be useful to this 
Subcommittee.
    And as I said, I had only one question to ask you so I am 
going to yield to my colleagues.
    Senator Cochran. Do you want to recognize George before you 
recognize me?
    Senator Akaka. Yes. May I recognize----
    Senator Voinovich. I just came in. Let Thad ask a question.
    Senator Cochran. I think you ought to.
    Senator Akaka [continuing]. Senator Voinovich for any 
statement he wishes to make.

             OPENING STATEMENT OF SENATOR VOINOVICH

    Senator Voinovich. I am going to ask that my statement be 
put in the record.
    [The prepared statement of Senator Voinovich follows:]
                 OPENING STATEMENT OF SENATOR VOINOVICH
    Thank you, Mr. Chairman, and I would like to commend you for 
holding this hearing on ``Critical Skills for National Security and the 
Homeland Security Federal Workforce Act.'' I would also like to welcome 
our witnesses and thank them for being here today.
    As you know, Mr. Chairman, reforming the Federal Government's human 
capital management has been one of my highest priorities as a Member of 
this Committee, and I know that you share my concern with the human 
capital crisis. You have also been an important leader on this issue, 
and I want to thank you personally for attending all of the hearings I 
held on human capital during the time I chaired the Oversight of 
Government Management Subcommittee.
    In addition to today's hearing on S. 1800, you have scheduled two 
days of hearings next week on my legislation, S. 1603, The Federal 
Human Capital Act of 2001, and the proposal I introduced on behalf of 
the Bush Administration with Senator Thompson, S. 1639, the Federal 
Employee Management Reform Act of 2001, and I would like to further 
thank you for agreeing to hold these hearings.
    In addition to the Committee's activities, other government offices 
and agencies are addressing the human capital crisis. Indeed, David 
Walker, Comptroller General of the United States, designated strategic 
human capital management as a governmentwide high-risk area in January 
2001, and has also made elevating the profile of and developing 
solutions to this problem a top priority. In August of last year, the 
Bush Administration designated strategic management of human capital as 
its number one governmentwide management initiative.
    In short, a great deal of action has been taken to address this 
issue over the last several years, and we are daily building momentum 
for the passage of reform legislation in Congress.
    It is my sincere hope that we can advance legislation through the 
Governmental Affairs Committee this spring that will incorporate the 
best elements of the various legislative proposals that are before us. 
I am extremely optimistic that we can enact legislation this year that 
will really make a difference to the Federal workforce.
    However, we do so knowing that this is but a down payment on 
reform, and that a comprehensive examination of issues such as pay, 
health care benefits, outsourcing (which, as you know, the Committee 
examined this issue last week), and the operations of Federal agencies 
is an urgently needed next step.
    Mr. Chairman, last March, the Subcommittee on Oversight of 
Government Management held a similar hearing on the national security 
implications of the human capital crisis. As the former Chairman of 
that Subcommittee, I had hoped to hold more hearings on the issue, but 
I am pleased you have called this hearing to carry-on this important 
discussion.
    At the hearing last March, witnesses from the Hart-Rudman 
Commission, the Department of Defense and the General Accounting Office 
testified about how the Federal Government's human capital challenges 
were endangering America's national security establishment and the 
ability of the government to defend our Nation and its interests around 
the world.
    Former Defense Secretary James Schlesinger, in discussing the 
conclusions of the Hart-Rudman Commission, made the following 
insightful observation:

          ``As it enters the 21st Century, the United States finds 
        itself on the brink of an unprecedented crisis of competence in 
        government. The maintenance of American power in the world 
        depends on the quality of U.S. Government personnel, civil and 
        military, at all levels. We must take immediate action in the 
        personnel area to ensure that the United States can meet future 
        challenges.''

    Secretary Schlesinger added further:

          ``. . . it is the Commission's view that fixing the personnel 
        problem is a precondition for fixing virtually everything else 
        that needs repair in the institutional edifice of U.S. national 
        security policy.''

    Who would dispute Dr. Schlesinger's assertion?
    We know all too well that there are nations and organizations 
around the world that have evil intentions against the United States.
    The best way for the United States to address our national security 
is to first and foremost confront our personnel deficit in the Armed 
Forces, the intelligence community, Federal law enforcement and our 
``front line'' of defense--our state and local police, fire and 
emergency services.
    Other committees are looking at why our intelligence establishment 
failed to predict or prevent the attacks of September 11, but I fully 
believe that when you peel away the layers, it will come down to the 
fact that we had people with inadequate skills minding the store.
    We need to work overtime, Mr. Chairman, to bring the right mix of 
people into the Federal Government if we are to confront and defeat 
terrorism. Our nation's security literally hangs in the balance.
    Mr. Chairman, you and I have joined Senators Durbin, Thompson and 
other Members of this Committee in introducing S. 1799 and S. 1800, 
bills which are based, in part, on the recommendations of the Hart-
Rudman panel.
    These bills include important flexibilities and innovative programs 
designed to make the Federal Government a more attractive employer for 
applicants with academic and professional background in areas critical 
to national security.
    For example, CIA Director Tenet recently noted that, within 3 
years, between 30 and 40 percent of his workforce will have been there 
for 5 years or less. He proposed overhauling the compensation system to 
help keep the ``best and brightest,'' and those with more experience at 
the Agency.
    Perhaps the most disturbing aspect of Director Tenet's statement is 
that the CIA already has many more personnel flexibilities than most 
other Federal agencies in the national security community. One can only 
imagine how much worse the condition of the workforce is at such 
agencies.
    In recent months, we have received ample evidence of one such 
deficiency (which has been examined previously by Senator Cochran). 
Federal agencies--from the State Department to the FBI--have a severe 
shortage of employees who are proficient in foreign languages that are 
critical to U.S. national security.
    A recent article in Government Executive stated that, because of 
problems with its personnel databases, the State Department did not 
even know how many Foreign Service Officers lack the language skills 
that their positions required. However, their estimates ranged from 16 
to 50 percent!
    Mr. Chairman, I still think it's incredible that in the aftermath 
of September 11, we had to advertise for people who speak Arabic and 
Farsi.
    Ambassador Whiteside, given your background as the former director 
of the Foreign Service Institute where FSOs receive language training, 
I will be interested in learning what the State Department is doing to 
address this problem.
    Congress has taken some action to alleviate the skills imbalances 
in the civilian workforce at the Department of Defense. Over the last 2 
years, I have successfully amended the Department of Defense 
authorization act to provide the Department with separation incentives 
and early retirement authority to reshape its civilian workforce to 
meet future challenges.
    I am particularly eager to hear from Ms. Groeber on how the Defense 
Department is managing this program, and I would like to compliment her 
office on its recent release of the implementation guidelines which 
provide the military departments and base leaders significant 
flexibility in the use of these authorities. The Defense Department's 
use of this authority may well become an example for the entire 
government.
    In closing, Mr. Chairman, I would note that over a decade has 
passed since the first Volcker Commission met and declared that the 
Federal Government has a ``quiet crisis'' in the area of human capital. 
Still, little has been done to address this problem.
    The events of September 11 demonstrate that the United States 
doesn't have the luxury of another decade before our government moves 
to comprehensively address the human capital crisis--particularly in 
our security agencies.
    It is encouraging that Mr. Volcker is convening a second commission 
to further examine this problem, and I look forward to that panel's 
analysis.
    However, that is not a reason to wait. We must act.
    The swift passage of human capital legislation, building on the 
base of such bills as S. 1800 and S. 1603, is needed this year, and I 
look forward to working with you, Mr. Chairman, in order to make it 
happen.
    Thank you, Mr. Chairman. I look forward to today's discussion.

    Senator Voinovich. Senator Akaka knows and so does Senator 
Cochran, I have been working on this human capital crisis now 
for 3 years since I came to the Senate and we have 
comprehensive legislation that we introduced along with the 
administration's, and I am so pleased that Senator Akaka has 
put together this special piece of legislation that deals with 
our national security agencies.
    Congressman Hamilton, you have been around here a long 
time, and I am sorry I am late for this hearing, but I was in 
another hearing with Senator Jeffords. We had Joe Allbaugh in 
there, and he is going to have this new first responder 
initiative in FEMA. So everybody is talking about what he 
should do, and I asked him, Joe, where are you in terms of your 
personnel? He said I am in awful shape. I do not have enough 
people. And he said many people are coming to me and they are 
retiring early. He said that, after September 11, they decided 
they wanted to spend more time with their wives and their 
families. And now that they have a chance, they are going to 
retire, and they are leaving.
    And we have ourselves a really difficult situation. And it 
is not only in national security, but it is right across the 
board. The question is how do we light a fire under this issue 
and underscore the urgency of our vulnerability right now? I 
have read the Hart-Rudman Commission's report. Senator Cochran, 
you have been around here for many years. How do we get our 
colleagues to understand how urgent this is?
    I mean we are talking about, for example, spending billions 
of dollars on a National Missile Defense System. It seems to me 
that the No. 1 thing that we should be concentrating our 
attention on is how do we keep ``the best and the brightest,'' 
and how do we attract ``the best and the brightest'' to the 
Federal Government in terms of say, intelligence agents and 
diplomats and a lot of other positions?
    So the question is: How in the world do we get this 
government to understand how important it is that we do 
something about it?
    Mr. Hamilton. Well, I believe you have to pay more for 
people, and I am all for the other incentives.
    Senator Voinovich. Let me just say this. We have had a 
comparability study around here, and we have not done anything 
with it because it costs money.
    Mr. Hamilton. That is correct.
    Senator Voinovich. And so you are saying we ought to look 
at that?
    Mr. Hamilton. Absolutely. And I think, look, we all know 
the civil service is rigid, and it discourages talent, and so 
one of the members of our commission was Norman Augustine, who 
headed Lockheed, and he said, look, we are spending a lot of 
time talking about terrorism, and we are talking about missile 
defense, and we are talking about all these fancy things, and 
difficult solutions. He said you have got to consider the civil 
service reform as a fundamental part of national security. 
Managers cannot manage today. They cannot hire. They cannot 
fire.
    And you have great rigidity in the system. I think Mr. 
Augustine was exactly right in it. Now, you have got to have 
other incentives, but these people that excel in the sciences, 
we know them to be very bright people. They are going to 
succeed no matter what happens. They are going to find a way to 
succeed.
    Senator Voinovich. Congressman Hamilton, the issue is how 
do we communicate to the members of Appropriations committees, 
to the Armed Services Committee, and to some of these other 
committees around here that we have this very terrible problem 
in terms of people?
    Mr. Hamilton. Well, you persuade your colleagues by 
conversation.
    Senator Voinovich. I am just saying you can answer better 
than I can.
    Mr. Hamilton. Yes. You persuade your colleagues by 
conversation. You do not persuade them by speeches. And it just 
takes persistence again and again and again. You have got a 
good case to make, and I think you can make it with your 
colleagues.
    That is the best I can say. You have just got to talk to 
them one on one. But, look, the National Security Commission is 
not by itself with these recommendations. You have had a half a 
dozen other commissions all make the same recommendations. You 
have had all of these experts about government who are 
preaching a common theme here, and maybe eventually that will 
get through to your colleagues. I think it will.
    It takes time to move this government, but it moves over 
time. I think that puts the burden on you, Senator, and your 
two colleagues here, but it can be done.
    Senator Akaka. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you very much. I think 
you make an excellent point, Congressman Hamilton, when you say 
that we need somebody to take the broad overview of the 
situation, somebody to look at the broad needs of the 
government for personnel that can help protect our security. I 
think that is what the President has stepped forward and 
recommended.
    As a matter of fact, he has brought into the government 
someone who has just that role, the Advisor to the President 
for Homeland Security, and that is one of the missions, as I 
understand it. So I think that we are seeing a very important 
step in that direction being made by President Bush.
    But we do need, I think, the underpinning of new 
authorities for Federal departments to use incentives to go 
after people who they want and need and they have to compete 
for, and with the incentives of forgiveness of student loans, 
scholarship programs designed to bring the graduates as they 
come out of college into the National Security Agency or 
whatever agency it is. We do that in the military, as a matter 
of fact.
    We have scholarship programs for ROTC students trying to 
recruit talented young men and women who will commit to service 
in the military after they graduate from college, and these 
were programs that were begun back when you and I were in--
well, you were maybe a year older or two. I remember you were a 
basketball star. You had a good excuse for not going to 
engineering lab when you were in college. [Laughter.]
    You had other responsibilities and talents.
    Mr. Hamilton. I was not smart enough to get into 
engineering. That is the fact of the matter.
    Senator Cochran. I think we do need to marshal our 
resources and to have someone at the highest level of our 
government to help ensure that is done. That is an excellent 
point.
    And your other observations are very helpful to the 
Subcommittee. I know you are in demand, and you have a lot of 
places you could be, but we appreciate very much your taking 
time to come testify before our Subcommittee today.
    Mr. Hamilton. Thank you, Senator Cochran. It is more than 
just financial incentives. I mean scientists need collegiality. 
They need to be able to talk with one another. That is the way 
the world of science moves forward, and so you have to create 
an environment for them in which they can consult not only with 
their colleagues in their particular area, but to consult with 
similar scientists all over the world.
    These scientific meetings are enormously important, because 
we do not have a monopoly on science in this country. That is 
part of it to create that collegiality, and I think that one of 
the good things that may have come out of September 11 is the 
sense of mission, and I think the people that preceded us here 
talked about that, that they now find much more interest in 
serving the national security of the United States, and that is 
an important factor. We want to take advantage of that.
    I very much hope that Governor Ridge, whom I consider as 
you do to be an excellent choice, will make this among his 
priorities. Homeland defense needs these kinds of people very 
much, and I think he will. I am pleased to hear that.
    Senator Cochran. Thank you.
    Senator Akaka. Well, if there are no further questions for 
Mr. Hamilton, I want to say thank you so much for being here, 
Congressman Hamilton.
    Mr. Hamilton. My pleasure. Thank you.
    Senator Akaka. And we thank you for your statements.
    I would like to welcome our third panel, and ask you to 
take your places. I want to thank Dr. Susan Westin, Managing 
Director for International Affairs and Trade Issues at the 
General Accounting Office, and Dr. Ray Clifford, Chancellor of 
the Defense Language Institute, for being with us today.
    I would like to thank GAO for their report on foreign 
language proficiencies in the Federal Government. So Dr. 
Westin, will you please proceed with your statement? Your full 
statements will be made a part of the record.

    TESTIMONY OF SUSAN S. WESTIN,\1\ MANAGING DIRECTOR FOR 
INTERNATIONAL AFFAIRS AND TRADE ISSUES, U.S. GENERAL ACCOUNTING 
                             OFFICE

    Ms. Westin. Thank you, Mr. Chairman and Members of the 
Subcommittee. I am pleased to be here today to discuss our 
recently completed report on foreign language proficiency and 
personnel shortfalls at four Federal agencies: The U.S. Army, 
the Department of State, the Foreign Commercial Service, and 
the FBI.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Westin appears in the Appendix on 
page 79.
---------------------------------------------------------------------------
    Federal agencies' foreign language needs have grown 
significantly over the past decade with increasing 
globalization and a changing security environment in light of 
such events as the breakup of the Soviet Union and the 
terrorist attacks of September 11. Foreign language skills are 
increasingly needed to support traditional diplomatic efforts 
and public diplomacy programs, military and peacekeeping 
missions, intelligence collection, counterterrorism efforts, 
and international trade.
    At the same time that Federal agencies find their needs for 
staff with foreign language skills increasing, these agencies 
have experienced significant reductions in force and no growth 
or limited growth environments during the last decade.
    As a result, some agencies must now contend with an aging 
core of language capable staff while recruiting and retaining 
qualified new staff in an increasingly competitive job market.
    Today, I will discuss three topics: (1) the nature and 
impact of foreign language proficiency and personnel shortages 
in these four Federal agencies; (2) the strategies that are 
being used to address these shortages; and (3) the efforts that 
have been made to address current and projected foreign 
language shortages.
    Let me address each of these in turn. First, all four 
Federal agencies covered in our review reported shortages of 
staff with foreign language skills that are critical to 
successful job performance. These staff include diplomats and 
intelligence specialists as well as translators and 
interpreters.
    The shortfalls varied significantly depending on the 
agency, job position, language, and skill level. To give just 
one example, the Army had a shortfall of 146 translators/
interpreters in the critical languages of Arabic, Korean, 
Mandarin Chinese, Persian-Farsi, and Russian.
    These shortfalls can have a significant impact on agency 
operations. For example, the FBI has thousands of hours of 
audio tapes and pages of written material that have not been 
reviewed or translated due to the lack of qualified 
translators.
    In addition, the State Department has long suffered from a 
language proficiency shortfall whereby Foreign Service officers 
must be placed in language designated positions at lower than 
desired levels of proficiency. According to officials from all 
four agencies, these types of shortfalls have hindered the 
prosecution of criminal cases, limited the ability to identify, 
arrest and convict violent gang members, weaken the fight 
against international terrorism and drug trafficking and 
resulted in less effective representation of U.S. interests 
overseas.
    Second, the agencies we reviewed reported using a range of 
workforce strategies to fill their specific foreign language 
needs. These strategies included providing staff with language 
training and pay incentives, recruiting employees with foreign 
language skills or hiring contractors, or taking advantage of 
information technology.
    This technology includes using network computers and 
contractor databases to optimize existing foreign language 
resources. While these assortive efforts have had some success, 
current agency strategies have not fully met the need for some 
foreign language skills.
    Third, to help fill existing skill shortages, some agencies 
have begun to adopt a strategic approach to human capital 
management and workforce planning. OPM has issued a workforce 
planning model that illustrates the basic tenets of strategic 
workforce planning.
    We used this model to assess the relative maturity of 
workforce planning at the four agencies we reviewed. As shown 
in Figure 2 of my written statement \1\ and as reproduced here 
for you to see, this model suggests that agencies follow a 5-
step process that includes setting a strategic direction, 
documenting the size and nature of skills gaps, developing an 
action plan to address these shortages, implementing the plan, 
and evaluating implementation progress on an ongoing basis.
---------------------------------------------------------------------------
    \1\ Figure 2 appears in the Appendix on page 89.
---------------------------------------------------------------------------
    This is a model that could be used to guide workforce 
planning efforts as they relate to other skills needed in the 
Federal Government such as math, science, and information 
technology.
    We found that the FBI had made an effort to address each of 
the five steps in OPM's model. For example, the FBI has 
instituted an action plan that links its foreign language 
program to the Bureau's strategic objectives and program goals. 
This action plan defines strategies, performance measures, 
responsible parties, and resources needed to address current 
and projected language shortages.
    In contrast, the other three agencies have yet to pursue 
this type of comprehensive strategic planning, and have only 
completed some of the steps outlined in OPM's planning model.
    In closing, I would like to note that foreign language 
shortages have developed over a number of years. It will take 
time, perhaps years, to overcome this problem. Effective human 
capital management and workforce planning, however, offer a 
reasonable approach to resolving such long-standing problems.
    Mr. Chairman and Members of the Subcommittee, this 
concludes my prepared statement. I will, of course, be happy to 
answer any questions you have.
    Senator Akaka. Thank you very much. Dr. Clifford, please 
give your statement now.

   TESTIMONY OF DR. RAY T. CLIFFORD,\1\ CHANCELLOR, DEFENSE 
                       LANGUAGE INSTITUTE

    Dr. Clifford. Thank you very much for this opportunity. I 
would like to provide a historical context for Dr. Westin's 
report. The first question faced by the founders of this 
Nation, I think, was what is important for the Nation to 
provide? Should, for instance, the teaching and learning of 
foreign languages be of national concern?
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Clifford appears in the Appendix 
on page 92.
---------------------------------------------------------------------------
    Yes. Even the preamble to the Constitution of the United 
States specifically says that the Union was formed to insure 
domestic tranquility and to provide for the common defense.
    Many people in the world today speak English, but it is a 
reality that our enemies do not speak English when they are 
talking to each other about us. In today's world, national 
defense requires capability in foreign languages.
    Now, the shortage of citizens with foreign language skills 
in the United States is not a new phenomenon. The problem has 
been identified many times in the past, but interest has waned 
before systemic improvements have been implemented.
    Very few people know that in 1923, because of the distrust 
that had been created by World War I, that it was necessary for 
the Supreme Court to overturn laws in 22 states that restricted 
foreign language instruction.
    In 1940, the National Report, ``What the High Schools Ought 
to Teach,'' found that high schools' ``overly academic'' 
curriculum was causing too many student failures. Foreign 
language instruction was among the subjects recommended for 
elimination. Foreign language instruction was not only 
difficult, it took so much time that new courses could not be 
added.
    1954. The publication ``The National Interest in Foreign 
Languages'' reported that only 14.2 percent of high school 
students were enrolled in foreign languages and most United 
States public high schools offered no foreign language 
instruction at all.
    1958. In response to Sputnik, the National Defense 
Education Act was passed to prepare more and better foreign 
language teachers. Immediate improvement was evident. Then 
funding waned and progress ceased.
    1975. The International Association for the Evaluation of 
Educational Achievement published the results of a research 
study titled ``The Teaching of French as a Foreign Language in 
Eight Countries.'' In the United States, the researchers could 
not find enough 12th grade students with 4 years of language 
study to complete the study as they had originally designed it.
    Still, the study found that the primary factor in the 
attainment of proficiency in any foreign language is the amount 
of instructional time provided.
    1979. The President's Commission on Foreign Language and 
International Studies reported Americans' incompetence in 
foreign languages is nothing short of scandalous, and it is 
becoming worse.
    1983. The Commission on Excellence in Education heard 
testimony that in the United States foreign language 
instruction had yet to attain mediocrity.
    1999 and forward, we have heard repeatedly from government 
agencies, including from the panel today, that these national 
needs are still with us. I am personally pleased to see that 
the bills S. 1800 and S. 1799 include several initiatives 
designed to improve U.S. readiness in foreign language skills.
    While the demand for competency in foreign language shifts 
occasionally in terms of the specific languages required, two 
trends have remained constant over time. First, the total 
number of linguist requirements has grown.
    Second, the levels of proficiency required of those 
linguists has increased. Therefore, the central challenges 
facing all segments of our society, including the government 
today, are recruiting more employees with language skills and 
then building on those language skills.
    In most other developed nations, the educational system 
provides the foundation language courses, and the government 
language school or schools builds on those skills.
    Whereas, currently more than 90 percent of the enrollments 
at the Defense Language Institute, for instance, are in 
beginning language courses, Germany's counterpart to the 
Defense Language Institute, the Bundessprachenamt, has nearly 
100 percent of its students enrolled in advanced language 
courses.
    The provisions of the Homeland Security Federal Workforce 
Act and the Homeland Security Education Act will help correct 
our national shortage I feel in qualified linguists by: 
Encouraging language majors to accept Federal employment; 
recognizing that second language skills are as necessary to our 
national defense as our skills in math and science; and 
producing graduates with advanced levels of language 
proficiency.
    I would suggest that the programs described in the Homeland 
Security Federal Workforce Act include all Federal employees, 
because most of the linguist assignments are in the excepted 
service or are exempt from the requirements of the competitive 
service.
    I believe I understand where the confusion is on this point 
because page 9, line 20, appears to have exclusionary language 
that if eliminated would then clarify this point.
    In closing, all of the Nation's problems preparing, 
recruiting, and retaining scientific personnel apply to the 
problems with language skills in the United States. The major 
difference is that the situation in languages is even worse. 
Thank you.
    Senator Akaka. Thank you very much, Dr. Clifford. I have 
some questions for both of you. Dr. Westin, your testimony 
forecasts substantial Federal retirements of those with key 
math and science backgrounds within 5 years.
    Why do you believe there are not more individuals entering 
government with math and science backgrounds?
    Ms. Westin. Mr. Chairman, we did not take that up 
specifically in the report. The report you are referring to 
talked about the retirement across the Federal Government in 
general, and we cited some statistics from that, but I believe 
the first panel spoke to that very well, and also Mr. Hamilton. 
It is a very competitive market. It is particularly competitive 
for staff personnel who have these skills, have majored in 
math, have degrees in math or science, or in engineering, and I 
think that one of the issues is people coming out with student 
loans, and many students do graduate today with student loans, 
and need to consider what their compensation is going to be 
when they take those first jobs.
    And I think right now we have seen that the Federal 
Government is not competitive in areas where many companies are 
competing to get these students.
    Senator Akaka. Your testimony emphasizes how Federal 
agencies can use workforce strategies to address shortfalls in 
foreign language capabilities. Has GAO looked at how workforce 
strategies can be used to ease shortages in math, science, and 
engineering within the Federal Government?
    Ms. Westin. We checked on prior GAO work, and we do not 
believe that there was anything in the very near past that 
addressed this, but I would like to point out that the reason 
that we brought the OPM workforce planning model, and think it 
is important to put up as a special board, is that this is a 
workforce planning model that is not designed just to address 
foreign language shortfalls.
    I think that it really starts with any agency setting a 
strategic direction, and then very importantly looking to see 
what skills you have on hand, how long people are going to be 
there, and identifying your gaps and then coming up with an 
action plan for filling the gaps. I can speak, if I can, to 
what GAO has done in this area.
    As you know, we have put together a strategic plan. We have 
conducted an inventory of staff knowledge and skills which is 
available to managers. We do pay attention to what percentage 
of our workforce is likely to retire and in what areas. We are 
instituting the student loan program. That is under development 
in our agency right now, and we expect to offer that to some 
staff this fiscal year.
    With regard to the student loan program, we have analyzed 
carefully where it should be targeted, not just areas where we 
have had trouble recruiting, but we are looking at one overall 
workforce, do we have more trouble recruiting or do we have 
more trouble retaining? So we have been looking at our past 
experience and seeing where we are most likely to lose staff 
and hope to target our program to help retain staff in those 
areas.
    Senator Akaka. Dr. Clifford.
    Dr. Clifford. Yes, sir.
    Senator Akaka. What is the best way to ensure that someone 
has a foreign language and technical background capable of 
analyzing highly technical intelligence? Is it better to start 
with someone with a science background and teach them a foreign 
language, and does the Defense Language Institute have programs 
for this?
    Dr. Clifford. Actually, experience would indicate that if 
you have a scientist who needs to learn a foreign language and 
you have someone who speaks a foreign language who needs to 
learn about its science, it is easier to take the person with 
the language skills and teach them science skills.
    Now, we have at our institute language programs that are 
quite specialized. We have courses for scientists. I remember 
looking at one curriculum where there were topics such as 
learning about the tensile strength of turbine blades in that 
foreign language. We can get quite technical.
    Underneath that technical language, there is a requirement 
for accurate communication skills in language in general. If 
one focuses without those foundation skills on the technical 
language, we find that we produce individuals who are able to 
miscommunicate about very technical things.
    Senator Akaka. Thank you. I yield to Senator Voinovich.
    Senator Voinovich. Dr. Westin, you said that the FBI in 
your opinion has done the best job of developing a workforce 
planning model. One of the provisions contained in my 
legislation would require Federal agencies to develop 
succession planning models so that they have an adequate 
understanding of what human capital needs they have--both 
currently in the future.
    Do you think it would be a good idea if this Subcommittee 
in putting together this legislation and the legislation I am 
working on would suggest that they follow this model so that we 
indeed end up with some document that clearly states what the 
needs are, and then put a dollar figure on what it would cost 
in order to get something like this done?
    Ms. Westin. We have found this model useful, not only for 
GAO itself, but also in looking as we did at these four 
agencies and where they are with respect to the model. Senator, 
I would say that in their response to our draft report, two of 
the agencies that we sent the draft report to for their 
comments thought that the original way we had stated our 
recommendation was too rigid, and so we revised that to say 
that we were not telling them exactly how to do it, but 
suggesting that the principles that are illustrated in such a 
model would be very helpful.
    So I would just say when you might use the word 
``suggest,'' that might be more helpful to agencies than to use 
the word ``require.''
    Senator Voinovich. Senator Akaka, it seems to me--and I was 
talking to Representative Hamilton about the issue of urgency--
that perhaps the only way that we are going to be able to deal 
with this in some of these agencies that deal with national 
security is to require them to develop these plans, so that we 
really have a handle on what is going on.
    For example, I asked Administrator Allbaugh today to come 
back with his evaluation of FEMA's human capital problems, and 
I am going to suggest that we submit your recommendation to him 
to have him go about doing his study that way. Maybe if we have 
that information, we might be able to start to underscore what 
an urgent need there is for all kinds of people in various 
agencies.
    I have another question for you, Dr. Westin. Your testimony 
highlights a critical deficiency plaguing the government--
language. However, the problem is deeper than the shortfalls of 
the Federal Government. Only a fraction of American college 
students even study a foreign language. I went to college at 
Ohio University in the 1950's, and you could not get out of 
there without having 2 years of a foreign language. And I will 
never forget. I tried to get out of Russian after the first 
year, and the dean, who I thought was my buddy, said stay in 
there, and so I took it for 3 years.
    But what is your observation across the country in terms of 
whether or not liberal arts institutions require foreign 
language as part of their programs, and how much of a 
requirement is there?
    Ms. Westin. We did not address that in this study. I could 
only speak to what I have read. I know my experience going 
through college and graduate school in terms of foreign 
language requirements seems to be different than it is today. I 
know that it was important for us to make sure that our 
daughters had foreign language in high school, but we have not 
undertaken a study to look at this comprehensively across the 
United States.
    Senator Voinovich. Dr. Clifford, do you have some 
information for us on that?
    Dr. Clifford. Yes, not specific statistics, but it is 
clear, and that I work with many of the universities 
nationally, the trend is to eliminate or at least reduce 
foreign language requirements across the board.
    There are a few countercurrents that I believe would be 
worthy of support, programs where there is, for instance, a 
specific emphasis on creating dual majors, scientists with a 
major perhaps in chemistry and a major in a foreign language. 
Those programs exist, and they exist at those institutes that 
would probably be the primary candidates for recognition under 
S. 1799 with the flagship programs.
    Senator Voinovich. There is a National Security Education 
Program. Are you familiar with NSEP?
    Dr. Clifford. Yes, I am.
    Senator Voinovich. OK. And it has been effective in 
offering language emersion opportunities in foreign countries 
to students in return for some Federal Service. I guess you 
want to study a language. We will send you overseas. You can 
really get into it, and come back, but in consideration for 
that, you are going to have to give us some time.
    Do you think that the expansion of such a program or the 
institution of a fellowship program, as proposed in S. 1800, 
might be a good way to attract additional linguists to the 
Federal service?
    Dr. Clifford. Absolutely. We have also found--I will just 
add to that general perception--that the way to learn a foreign 
language is to go overseas. The research shows that the way to 
learn a foreign language is to learn a foundation capability in 
the language in a classroom first, and then once overseas you 
have all the skills to take advantage of the experience and not 
just observe it.
    So that combination, though, of preparation and then 
overseas experience, followed by a commitment, an obligation, 
is a great combination to focus our limited resources and see a 
return.
    Senator Voinovich. In other words, make sure that the 
foundation is in place so that they are not just going over and 
having a little joy ride.
    Dr. Clifford. My statement might be interpreted that way, 
yes.
    Senator Voinovich. OK.
    Dr. Clifford. And I would agree.
    Senator Voinovich. OK. The other thing that we all know--
and I would be interested in your comments on this--is that the 
earlier one learns a language, the better off they are. I mean 
it is not going to deal with our immediate shortage of 
linguists, but do you think in the long term that some 
consideration to that should be given to early language 
training for children? Either one of you?
    Ms. Westin. Well, again, I am not speaking to work the GAO 
has done on this, but it does seem to me that one of the things 
that we could take more advantage of is the children of 
immigrants and to make sure that they keep that ability in 
their first language as they are learning English and learning 
to function in this country, which is equally important, but I 
think that it is too bad if those other language skills are 
lost along the way.
    Senator Voinovich. OK. That is interesting. What you are 
basically saying is we do have a lot of immigrants that come 
here and then they raise their families, but a lot of times, 
the children of those immigrants do not learn the native 
language?
    Ms. Westin. Well, that is my understanding that they may 
speak it at home. From some experience, I know as they grow 
older, they want to communicate in English with their friends, 
and I think also that we might not have made the efforts to 
make sure they are instructed in that language as well as just 
maintaining conversational level skills.
    Senator Voinovich. Well, it is interesting, Mr. Chairman, 
that we do not really encourage that. We talk about just 
learning English. My mother spoke fluent Slovenia and my father 
spoke fluent Serbian, but the only time they ever spoke in the 
native tongues was at home. They were both first generation 
college graduates and they knew their languages, but they only 
used them when they did not want us to know what they were 
saying. I can tell you all the swear words. [Laughter.]
    But again there is a kind of perception in the country that 
this is not a good thing to do. We should maybe try to change 
that attitude towards that issue.
    Dr. Clifford. I would add to the comments made that indeed 
this is a national resource. With proper attention paid to the 
language skills of these families, we would have more 
individuals prepared when it came to hiring. Now, there are a 
few programs that Members of the Subcommittee might be 
interested in looking into. They are generally referred to as 
two-way immersion programs, which provide an opportunity for 
the English speaking students to spend half of their day in the 
language of what we call the heritage speakers, and the 
heritage speakers to spend half of their day in English.
    They seem to have found that to be a very useful and 
beneficial combination.
    The other point to be made, I believe, is that one thing we 
can say for sure about early learning of foreign languages is 
that if you start learning early, there is an opportunity for 
an extended sequence of language instruction.
    In some assignments, I spent some time working with NATO 
and Partnership for Peace Nations, and it is rather amazing 
that, for instance, I was--let me tell an anecdote. I was asked 
to provide some advice for the service academy for the Finnish 
armed forces. I was in Helsinki, visited their site, and as I 
learned further, their major problem was that their junior 
officers' capability in their fourth language was not as good 
as in the other three. [Laughter.]
    And the reason was that they did not start learning that 
fourth language until junior high.
    Senator Voinovich. Is that not something?
    Dr. Clifford. That is the rest of the world. If we want a 
world-class educational system, we might consider doing what 
the rest of the world does.
    Senator Voinovich. I may be wrong on this, but maybe one of 
the reasons why Americans do not have great facility in foreign 
languages is that people keep saying that English has become 
the universal language, and you do not need to learn other 
languages. I go to NATO and OSCE meetings, and I meet people 
from all over. They all can speak English. Rarely does anyone--
Jim Oberstar--you remember Jim--speaks fluent French, and he 
will sometimes speak in that language. But there are very few 
of us that can speak another language. I tried to bumble along 
when I was in St. Petersburg a couple of years ago, but there 
is a feeling that we do not need to learn another language 
because, around the world, the universal language is English.
    Do you think that is one of the things discouraging people 
or not providing them the incentive they need to study another 
language?
    Ms. Westin. I think that might be the case. I would like to 
point out, though, that I head the International Affairs and 
Trade team at GAO, and we have been doing a fair amount of 
recruiting, and I have been very impressed with the number of 
applicants that we get who want to work in my team who have 
real proficiency in a second language and sometimes a third.
    I often ask them how did you get so good, and it seems that 
there are two things. One is somehow they got excited about it 
studying, whether they started in grade school or whether they 
started in junior high or high school, and then they took 
advantage of a foreign exchange program, and spent some time 
overseas, and that is where they felt they really learned the 
language, and we have found these skills are very important to 
us in our oversight function.
    For example, as you know, we have been looking at the 
reconstruction projects from Hurricane Mitch hitting Central 
America. On almost every one of those monthly trips, we have 
been able to send a fluent Spanish speaker and it has made a 
difference when looking at these projects that somebody can 
understand the idiomatic Spanish and communicate with the 
people where the money is going.
    Senator Voinovich. Well, it would be interesting to go back 
and check on some of those incentives, how they got involved, 
and see if we could not start to encourage that to happen. 
Thank you.
    Senator Akaka. Well, thank you very much, Senator 
Voinovich, one of the leaders in this effort, and thank you for 
making a stimulating discussion. I want to thank our witnesses 
for their testimony this afternoon. They have told us in many 
different ways that individuals with strong backgrounds in 
science, math, and foreign languages are vital if the Federal 
Government is going to meet our national security needs.
    In addition to having jurisdiction over the civil service, 
this Subcommittee also has oversight over international 
security and proliferation. Over the past year, we have held 
hearings on a number of different international security and 
proliferation issues. Whether the topic was monitoring 
multilateral treaties, assistance to Russia to prevent the 
loss, theft, or diversion of weapons of mass destruction, or 
responding to acts of bioterrorism on our own soil, one thing 
was clear: Our success in any of these areas will depend upon 
having the right people in the right place.
    The Hart-Rudman Commission's final report states the 
excellence of American public servants is the foundation upon 
which an effective national security strategy must rest. The 
report notes that future successes will require the mastery of 
advanced technology from the economy to combat, as well as 
leading edge concepts of governance.
    The workforce concerns facing the Federal Government did 
not come about overnight, as we all know. They are the result 
of years of neglect and focusing on short-term needs rather 
than long-term strategies. It will take sustained effort and 
support to hire and retain, and retrain employees with the 
critical skills needed to ensure homeland and national 
security.
    The legislation that I and my colleagues have introduced is 
an effort to ensure that we have those public servants. We are 
in a sense in a state of national emergency. We have no further 
questions for this panel at this time. However, Members of this 
Subcommittee may submit questions in writing for any of the 
witnesses, and we would appreciate a timely response to any 
questions.
    Do you have any further comments to make?
    Senator Voinovich. No, thank you, Mr. Chairman. Thank you.
    Senator Akaka. Well, if not, I would like to again express 
my appreciation once again for your time. This Subcommittee 
stands adjourned.
    [Whereupon, at 4:40 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              

                  PREPARED STATEMENT OF SENATOR DURBIN
    Last January, members of the Hart-Rudman Commission on National 
Security for the 21st Century testified before our Governmental Affairs 
Subcommittee outlining their recommendations for ensuring the security 
of our nation. As we will hear from Congressman Hamilton, a Hart-Rudman 
Commissioner and one of our witnesses today, the Commission's 
recommendations centered around the most highly skilled Federal 
workforce possible, and reforming the nation's education system to 
ensure that every young person has the tools needed to succeed in the 
21st Century.
    Senators Akaka, Thompson and I have retold the tale of 1957 many 
times. In that year, the Soviet Union launched Sputnik into orbit. We 
were caught off guard as a nation. The start of the space race revealed 
to us that major changes had to be made to preserve our national 
security and to pull ahead in scientific and technological innovation.
    It took Congress just 1 year to pass landmark legislation--the 
National Defense Education Act. The stated purpose of the act was to 
``strengthen the national defense and to encourage and assist in the 
expansion and improvement of educational programs to meet critical 
national needs'' This legislation established a coordinated national 
effort in education, training, and the fortification of our Federal 
workforce, and it helped our Nation meet its goals.
    Within 10 years of the passage of the National Defense Education 
Act, American astronauts landed on the moon--years ahead of schedule. 
The United States was the most technologically advanced nation in the 
world. A new generation of highly skilled mathematicians, scientists, 
and technology experts staffed our laboratories, universities, and 
Federal agencies. Our colleges and universities had the resources they 
needed to support the most advanced levels of foreign language, 
international studies, science, math, and engineering.
    Yesterday marked the 6-month anniversary of the attacks on the 
World Trade Center and the Pentagon. While the outpouring of 
volunteerism and goodwill that followed is a testament to the strength 
of the American people in the wake of devastating circumstances, I fear 
that this wave of interest in public service may already be on the 
wane.
    If last September taught us anything, it is that we can't afford to 
let this period of heightened awareness of our national security needs 
pass without reform.
    Today we are here to discuss the Homeland Security Federal 
Workforce Act. This legislation will establish a collaborative and 
strategic approach to our Federal workforce--especially that part of 
the workforce charged with our nation's security.
    This legislation builds on the existing Federal student loan 
forgiveness program. Every Senator who is a cosponsor of the Homeland 
Security Federal Workforce Act also worked long and hard to ensure that 
all Federal agencies have the authority to create a loan repayment 
program for their employees. With this legislation, we will give 
specific funds to key Federal agencies engaged in national security to 
permit enhanced loan forgiveness to employees in critical national 
security positions.
    The National Security Fellowship Program in the bill will pay for 
graduate study in math, science, engineering, or foreign languages for 
students who agree to serve in a position of national security upon the 
completion of their degree. This fellowship program will also be open 
to current Federal employees, encouraging the enhancement and 
development of the skills of our current workforce.
    The legislation also creates a National Security Service Corps to 
give Federal employees more flexibility and experience within the 
national security community.
    Our Nation has spent billions dealing with the aftermath of 
September 11. The human cost of the tragedies was absolutely 
unbearable.
    This legislation, along with a companion bill we introduced--the 
Homeland Security Education Act, which has been referred to the HELP 
Committee--will help our nation's Federal workforce and education 
system rise to a level that will go a long way to ensure that such 
tragedies will never happen again.
    We owe it to the American people to ensure that our Federal 
workforce is the best-educated, best-prepared, and best-qualified in 
the world. The Homeland Security Federal Workforce is an essential part 
of this ongoing goal.

[GRAPHICS] [TIFF OMITTED] 79886.001

</pre></body></html>
